<html>
<title> - ENSURING THE SECURITY, STABILITY, RESILIENCE, AND FREEDOM OF THE GLOBAL INTERNET</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]







ENSURING THE SECURITY, STABILITY, RESILIENCE, AND FREEDOM OF THE GLOBAL 
                                INTERNET

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 2, 2014

                               __________

                           Serial No. 113-134


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      Printed for the use of the Committee on Energy and Commerce
                     energycommerce.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

90-781                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                    
                     
                     
                     
                     
                     
                     
                     
                     
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               FRANK PALLONE, Jr., New Jersey
JOSEPH R. PITTS, Pennsylvania        BOBBY L. RUSH, Illinois
GREG WALDEN, Oregon                  ANNA G. ESHOO, California
LEE TERRY, Nebraska                  ELIOT L. ENGEL, New York
MIKE ROGERS, Michigan                GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey                Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     BRUCE L. BRALEY, Iowa
CORY GARDNER, Colorado               PETER WELCH, Vermont
MIKE POMPEO, Kansas                  BEN RAY LUJAN, New Mexico
ADAM KINZINGER, Illinois             PAUL TONKO, New York
H. MORGAN GRIFFITH, Virginia         JOHN A. YARMUTH, Kentucky
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Missouri
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina

             Subcommittee on Communications and Technology

                          GREG WALDEN, Oregon
                                 Chairman
ROBERT E. LATTA, Ohio                ANNA G. ESHOO, California
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               MICHAEL F. DOYLE, Pennsylvania
LEE TERRY, Nebraska                  DORIS O. MATSUI, California
MIKE ROGERS, Michigan                BRUCE L. BRALEY, Iowa
MARSHA BLACKBURN, Tennessee          PETER WELCH, Vermont
STEVE SCALISE, Louisiana             BEN RAY LUJAN, New Mexico
LEONARD LANCE, New Jersey            JOHN D. DINGELL, Michigan
BRETT GUTHRIE, Kentucky              FRANK PALLONE, Jr., New Jersey
CORY GARDNER, Colorado               BOBBY L. RUSH, Illinois
MIKE POMPEO, Kansas                  DIANA DeGETTE, Colorado
ADAM KINZINGER, Illinois             JIM MATHESON, Utah
BILLY LONG, Missouri                 G.K. BUTTERFIELD, North Carolina
RENEE L. ELLMERS, North Carolina     HENRY A. WAXMAN, California, ex 
JOE BARTON, Texas                        officio
FRED UPTON, Michigan, ex officio
  
  
  
  
  
  
  
  
  
  
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     1
    Prepared statement...........................................     3
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................     5
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................
    Prepared statement...........................................     7
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     8
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, prepared statement......................................   106

                               Witnesses

Lawrence Strickling, Assistant Secretary for Communications and 
  Information, and Administrator, National Telecommunications and 
  Information Administration.....................................    10
    Prepared statement...........................................    13
    Answers to submitted questions...............................
Fadi Chehade, President and CEO, Internet Corporation for 
  Assigned Names and Numbers.....................................    22
    Prepared statement...........................................    24
    Answers to submitted questions...............................
Ambassador David Gross, Partner, Wiley Rein, LLP.................    33
    Prepared statement...........................................    35
    Answers to submitted questions...............................
Steve Delbianco, Executive Director, Netchoice...................    68
    Prepared statement...........................................    71
    Answers to submitted questions...............................
Carolina Rossini, Project Director, New America Foundation Open 
  Technology Institute...........................................    83
    Prepared statement...........................................    85
    Answers to submitted questions...............................

                           Submitted Material

Statement of The Internet Association, submitted by Mr. Walden...   108
Article entitled, ``U.S. Plans to Give Up Oversight of Web Domain 
  Manager,'' The Wall Street Journal, March 14, 2014, submitted 
  by Ms. Eshoo...................................................   110
Statement of Robert M. McDowell, submitted by Ms. Eshoo..........   113
Letter of April 1, 2014, from NGOs to subcommittee, submitted by 
  Ms. Eshoo......................................................   116
Article entitled, ``U.S. to relinquish remaining control over the 
  Internet,'' The Washington Post, March 14, 2014, submitted by 
  Ms. Eshoo......................................................   118

 
                   ENSURING THE SECURITY, STABILITY,
             RESILIENCE, AND FREEDOM OF THE GLOBAL INTERNET

                              ----------                              


                        WEDNESDAY, APRIL 2, 2014

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:36 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. Greg 
Walden (chairman of the subcommittee) presiding.
    Members present: Representatives Walden, Latta, Shimkus, 
Terry, Blackburn, Scalise, Lance, Guthrie, Kinzinger, Long, 
Ellmers, Barton, Upton (ex officio), Eshoo, Doyle, Matsui, 
Braley, Lujan and Waxman (ex officio).
    Staff present: Gary Andres, Staff Director; Ray Baum, 
Senior Policy Advisor/Director of Coalitions; Sean Bonyun, 
Communications Director; Matt Bravo, Professional Staff Member; 
Gene Fullano, Detailee, Telecom; Kelsey Guyselman, Counsel, 
Telecom; Grace Koh, Counsel, Telecom; David Redl, Counsel, 
Telecom; Charlotte Savercool, Legislative Coordinator; Tim 
Torres, Deputy IT Director; Tom Wilbur, Digital Media Advisor; 
Phil Barnett, Democratic Staff Director; Shawn Chang, 
Democratic Chief Counsel for Communications and Technology 
Subcommittee; Margaret McCarthy, Democratic Professional Staff 
Member; Ryan Skukowski, Democratic Staff Assistant; and Patrick 
Donovan, Democratic FCC Detailee.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. OK, we'll call to order the subcommittee on 
Communications and Technology.
    Good morning. I want to thank all of our witnesses today 
for clearing their schedules to come before our subcommittee on 
Communications and Technology to discuss the Obama 
Administration's proposal to transfer to another entity 
oversight of the domain name system.
    I have read all of your testimony. I appreciate your 
counsel, and especially appreciate the thoughtful scenarios and 
stress tests noted in Mr. DelBianco's testimony. Those are 
precisely the kinds of issues that certainly get our attention. 
I cannot overstate the importance of freedom of the Internet 
from government control, nor can I overstate the threat from 
foreign governments who seek to control, tax, sensor and 
otherwise impose their own agendas on the Internet. That is why 
the House has unanimously passed both a resolution and 
legislation that affirm our policy that the United States 
should promote a global Internet free from government control, 
and I do hope the United States Senate will take up our latest 
measure with all due haste.
    Obviously, the Administration's proposal has sparked 
furious debate, and brought together in opposition some 
interesting former combatants, ranging from Karl Rove to Bill 
Clinton and Newt Gingrich.
    I called today's hearing to get answers to exactly what the 
Obama Administration is proposing and what it is not. Are the 
goals of security, stability, resilience and freedom of the 
Internet compatible with a multi-stakeholder-managed domain 
name system. The multi-stakeholder model is a key part of the 
success of the Internet with engineers, academics, public 
interest groups and users collaborating in a bottom-up, not 
government down approach. The decentralized management 
structure provides the flexibility to evolve, and disperses the 
risks posed by bad actors. However, once NTIA gives up its 
current role, who will fill the void. What assurance do 
Internet users have that such a change will not lead to foreign 
government mischief. If things do go astray, is there a path 
back for NTIA. The role that NTIA performs, though somewhat 
ministerial, has served as an important backstop. While I am 
heartened to see the criteria that NTIA set forth for any 
acceptable proposal included a prohibition on government-led or 
governmental organization taking control, I do remain concerned 
about how to prevent such a takeover in the future. What 
safeguards would be in place? We cannot allow institutions such 
as the United Nations or the International Telecommunications 
Union to insert themselves into the functioning of the domain 
name system now or as part of any successor solution.
    Make no mistake, threats to the openness and freedom of the 
Internet are real. Some authoritarian leaders such as Vladimir 
Putin have explicitly announced their desire to gain control of 
the Internet. In fact, just a year and a half ago, at the World 
Conference on International Telecommunications in Dubai, a 
group of nations attempted to use a treaty on telephone 
networks and services as a backdoor to imposed policies that 
could have thwarted the robust and open nature of the Internet.
    I am sure the Administration understands why we are so 
concerned about any proposed changes now the Internet is 
governed. We need details on how the process will work, and the 
criteria for evaluating the proposals. Mr. Shimkus and Mrs. 
Blackburn have a bill they recently introduced, H.R. 4342, 
which I believe has been distributed to everyone here, that 
would have the GAO study the proposals and present a 
nonpartisan evaluation. This is a prudent idea and one we will 
move forward on very soon.
    [H.R. 4342 follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Walden. Any plan must protect all participants in the 
Internet ecosystem, and demonstrate the successor's technical 
ability to manage the IANA functions. If there are not 
sufficient safeguards in place to prevent foreign government 
intrusion, then this concept should go no further.
    Even with these guarantees, I remain concerned about the 
opportunities for abuse. When it comes to the core principles 
that NTIA and the State Department have put forward, I urge 
them to follow the admonition of Margaret Thatcher, and ``Don't 
go wobbly.'' There is no putting this genie back in the bottle 
once the transition begins.
    So we are holding this hearing because far too much is at 
stake for any uncertainty or ambiguity as to our path forward.
    A little less than a year ago, the world was watching as we 
deliberated H.R. 1580, our unanimously-passed Bill supporting 
the multi-stakeholder process. The world, including those 
deeply concerned about government control of the Internet, is 
watching again today. This is the Administration's opportunity 
to make its case and answer our questions, prove to us that you 
will conduct this proposed process in a way that leaves no room 
for error, and it will protect the free and open Internet we 
have all come to expect and rely upon.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    I want to thank all of our witnesses today for clearing 
their schedules to come before our Communications and 
Technology Subcommittee to discuss the Obama administration's 
proposal to transfer to another entity oversight of the Domain 
Name System. I've read all of your testimony and appreciate 
your counsel. I especially appreciated the thoughtful scenarios 
and stress tests noted in Mr. DelBianco's testimony. Those are 
precisely the kinds of issues that get our attention.
    I cannot overstate the importance of freedom of the 
Internet from government control. Nor can I overstate the 
threat from foreign governments who seek to control, tax, 
censor, and otherwise impose their own agendas on the Internet. 
That's why the House has unanimously passed both a resolution 
and legislation that affirm our policy that the United States 
should promote a global Internet, free from government control. 
I do hope the Senate takes up our latest measure with all due 
haste.
    Obviously, the administration's proposal has sparked 
furious debate and brought together in opposition some 
interesting former combatants ranging from Karl Rove to Bill 
Clinton and Newt Gingrich.
    I called today's hearing to get answers to exactly what the 
Obama administration is proposing and what it is not. Are the 
goals of security, stability, resilience and freedom of the 
Internet compatible with a multistakeholder managed Domain Name 
System?
    The multi-stakeholder model is a key part of the success of 
the Internet, with engineers, academics, public interest 
groups, and users collaborating in a bottom-up, non-
governmental approach. The decentralized management structure 
provides the flexibility to evolve and disperses the risks 
posed by bad actors. However, once NTIA gives up its current 
role, who will fill the void? What assurance do Internet users 
have that such a change will not lead to foreign government 
mischief? If things go astray, is there a path back for NTIA?
    The role that NTIA performs, though somewhat ministerial, 
has served as an important backstop. While I am heartened to 
see the criteria that NTIA set forth for any acceptable 
proposal included a prohibition on a government-led or 
intergovernmental organization taking control, I remain 
concerned about how to prevent such a takeover in the future. 
What safeguards are in place?
    We cannot allow institutions such as the United Nations or 
the International Telecommunication Union to insert themselves 
into the functioning of the Domain Name System now, or as part 
of any successor solution.
    Make no mistake; threats to the openness and freedom of the 
Internet are real. Leaders such as Vladimir Putin have 
explicitly announced their desire to gain control of the 
Internet. Just a year and a half ago, at the World Conference 
on International Telecommunications in Dubai, a group of 
nations attempted to use a treaty on telephone networks and 
services as a backdoor to impose policies that could have 
thwarted the robust and open nature of the Internet.
    I'm sure the administration understands why I am so 
concerned about any proposed changes to how the Internet is 
governed. We need details on how the process will work and the 
criteria for evaluating proposals. Mr. Shimkus and Mrs. 
Blackburn have a bill they recently introduced--H.R. 4342--that 
would have the GAO study the proposals and present a non-
partisan evaluation. This is a prudent idea. Any plan must 
protect all participants in the Internet ecosystem and 
demonstrate the successor's technical ability to manage the 
IANA functions. If there are not sufficient safeguards in place 
to prevent foreign government intrusion, then this concept 
should go no further. Even with these guarantees, I remain 
concerned about the opportunities for abuse.
    When it comes to the core principles that NTIA and the 
State Department have put forward I urge them to follow the 
admonition of Margaret Thatcher and ``Don't Go Wobbly''. There 
is no putting this genie back in the bottle once the transition 
begins. We are holding this hearing because far too much is at 
stake for any uncertainty or ambiguity as to our path forward.
    A little less than a year ago, the world was watching as we 
deliberated H.R. 1580, our unanimously passed bill supporting 
the multi-stakeholder model. The world, including those deeply 
concerned about government control of the Internet, is watching 
again today. This is the administration's opportunity to make 
its case and answer our questions. Prove to us that you will 
conduct this proposed process in a way that leaves no room for 
error and that will protect the free and open Internet we have 
all come to expect and rely upon.

    Mr. Walden. With that, I will yield to the vice chair of 
the committee, Mr. Latta.
    Mr. Latta. Well, thank you very much, Mr. Chairman, and 
thank you very much to our witnesses for testifying today.
    As the Chairman said, the Internet has developed into a 
robust and competitive frontier for free enterprise, 
innovation, job creation, and economic growth and prosperity. 
In our own democratic government, it serves as a tool for 
citizens to exercise their fundamental freedoms, and for those 
around the world, the Internet enables the exercise of basic 
human rights, as well as political advancement and reform. The 
preservation of the Internet's openness and freedom is, and 
must continue to be, non-negotiable.
    As the NTIA prepares to relinquish its contractual 
oversight of the IANA functions of ICANN, any new oversight 
proposals that threaten to diminish the existing multi-
stakeholder model of Internet governance must be rejected. Not 
doing so will jeopardize the economic prosperity we have 
achieved throughout the United States and the world, and may 
curtail the basic freedoms and human rights of millions, if not 
billions.
    I support calls to engage in rigorous and careful 
congressional oversight of NTIA's proposed transition of its 
contract to ensure that no government or intergovernmental body 
takes control of domain name system responsibilities, and that 
the Internet remains as free and open as it is today.
    And again, Mr. Chairman, I thank you very much, and I yield 
back.
    Mr. Walden. Gentleman yields back. And before I recognize 
the gentlelady and the ranking member from California, I would 
like to ask unanimous consent to put a statement of support 
from the Internet Association, representing many of America's 
great Internet successful companies including Amazon, Facebook, 
Twitter, Yahoo, Netflix, and Google, and statements from AT&T, 
Verizon, Cisco, and the United States Chamber of Commerce, 
expressing support for a process to investigate a transition 
that precludes other governments from assuming the role the 
U.S. currently plays.
    I have all of those, and without objection, they will be 
entered into the record.
    [The information appears at the conclusion of the hearing.]
    Mr. Walden. And with that, I will now turn to my friend and 
colleague from California, Ms. Eshoo, for 5 minutes.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman, both for having this 
hearing and for our important witnesses that are here today. 
This is a very important discussion that we are going to have, 
and we look forward to your testimony.
    For more than 2 decades, there is no question that the 
Internet has flourished as a platform that enables the exchange 
of commerce, trade and information. Last year, the House passed 
legislation on a 413 to 0 vote, stating ``It is the policy of 
the United States to preserve and advance the successful multi-
stakeholder model that governs the Internet.'' Now we are 
hearing the criticisms and even rejection of this model which 
has provided the underpinnings for innovation, openness, and 
economic prosperity around the world.
    I think history can be instructive to us here. In 1998, the 
U.S. Department of Commerce outlined a plan that would phase 
out its policy oversight role within 2 years. While this 
transition obviously took longer than it should, they operated 
more on government time than on real time, it is now time for 
the United States to finally walk the walk, and demonstrate to 
the world that while the Internet was a product of America's 
genius, no government or intergovernmental organization should 
control its future. To ensure that the next 2 decades, and even 
beyond that, are just as successful, we need to think big about 
how we preserve the global Internet principles of openness, 
security, stability, and resiliency.
    In this context, NTIA's announcement last month to 
transition key Internet domain name functions to the global 
multi-stakeholder community is an important step in the 
evolution of the Internet. It is what people voted for, 413 to 
zip. That is what was embedded in that resolution, and that 
resolution was more than noticed by countries around the world, 
because the United States of America was absolutely 1,000 
percent united. The Executive Branch, the Senate, the House, 
all our representatives. There was no daylight between us. So I 
think it might be instructive to go back and see what members 
voted for.
    During the 2012 World Conference on International 
Telecommunications, WCIT, in Dubai, we saw firsthand that there 
are nations around the globe who do not share our vision for 
maintaining the free flow of information across the Internet. 
In practice, this has manifested itself in the blocking of 
popular social media sites like Facebook, Twitter, and YouTube, 
which are used daily by millions around the world to share 
their ideas, their news, and their beliefs. I just headed up a 
resolution condemning Turkey for what it did in shutting all of 
these platforms down. And so I don't think that there is an 
argument about that. I think there is some confusion about the 
understanding of what this represents.
    Independent of whether NTIA successfully transitions the 
domain name system, the DNS, to the multi-stakeholder 
community, these acts of censorship will continue unless we 
unite across the globe in support of a free and open Internet. 
I think that that is what we have to keep front and center 
here.
    So, Mr. Chairman, I think we have significant work ahead of 
us. I hope this is the first of many conversations we have to 
not only examine ICANN's role, but more broadly, how to expand 
the availability of broadband, enhance consumer privacy, ensure 
the security of communication networks, and protect 
intellectual property around the world.
    My thanks again to the witnesses. And I want to especially 
recognize Assistant Secretary Strickling for his leadership and 
vision to ensure that throughout this transition, the Internet 
remains open to ALL, in capital letters, to ALL, and that it 
remain a success story for generations to come.
    I would like to--I don't know where the time clock is on 
this.
    Mr. Walden. Fourteen seconds.
    Ms. Eshoo. Fourteen seconds? Do you want to take 14 
seconds, Doris, or--OK. Well, then I will yield back. Thank 
you.
    Mr. Walden. Gentlelady yields back the balance of her time. 
The Chair recognizes the big Chair, Mr. Upton, from Michigan. 
Please go ahead.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Thank you, my friend.
    Today, our important work continues to protect the future 
of the Internet, a subject of great consequence for sure. This 
committee has been at the forefront of the effort to preserve 
the Internet openness and freedom. A non-regulatory, multi-
stakeholder government model is essential to the continued 
success of the Internet, and has been critical to the 
development of this engine of economic, political and social 
engagement.
    We have affirmed our commitment to this principle more than 
once. First, with the passage of Congress Resolution 2012, and 
then, of course, with H.R. 1580, which all of us have talked 
about, which passed by a unanimous vote.
    We must do all that we can to keep the Internet free from 
the control of those who wish to use it for less than noble 
means. Keeping it out of the hands of nations like China, Iran, 
and Russia, who have demonstrated hostility towards the free 
market, the flowing, unfettered exchange of information is 
important. NTIA's recent announcement of its intent to 
transition Internet oversight functions to a new structure 
should be met with a critical eye, especially when you take 
into account the Administration's track record of saying one 
thing and doing yet another.
    This issue has united one-time opponents Bill Clinton and 
Newt Gingrich, who are fighting to protect the Internet as we 
know it.
    Something as important as the future of the Internet 
demands a thoughtful and deliberative process, and I join my 
colleagues in supporting the DOTCOM Act, and I would commend 
Mr. Shimkus and Mrs. Blackburn for coauthoring that measure, as 
well as Mr. Latta, Ellmers and Barton for their early support, 
and we plan to announce a markup schedule very soon. This Act 
will stop--will step on the brakes until the GAO is able to 
analyze all the aspects and implications of the proposed shift 
in Internet oversight, including potential national security 
concerns.
    While I do not oppose a vigorous discussion of whether and 
how we could transition the domain name system out of the 
Commerce Department's purview, we are a long way from seeing a 
proposal that I could support. As the world moves forward with 
this discussion, we will conduct vigorous oversight of the 
process, and hold NTIA to its word that it will not allow the 
Internet to fall victim to international government power 
grabs. Our work continues.
    I yield one minute each to Mr. Shimkus and Mrs. Blackburn.
    [The prepared statement of Hon. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Today our important work continues to protect the future of 
the Internet--a subject of great consequence. This committee 
has been at the forefront of the effort to preserve Internet 
openness and freedom. A nonregulatory, multi-stakeholder 
governance model is essential to the continued success of the 
Internet and has been critical to the development of this 
engine of economic, political, and social engagement. We have 
affirmed our commitment to this principle more than once--first 
with the passage of a sense of the Congress resolution in 2012, 
and then with the unanimous House approval of H.R. 1580 in 
2013.
    We must do all we can to keep the Internet free from the 
control of those who wish to use it for less than noble means, 
keeping it out of the hands of nations like China, Iran, or 
Russia who have demonstrated hostility toward the free flowing, 
unfettered exchange of information.
    NTIA's recent announcement of its intent to transition 
Internet oversight functions away from the U.S. government 
should be met with a critical eye, especially when you take 
into account the administration's track record of saying one 
thing and doing another.
    When deadlines have no meaning, red lines disappear, and 
projects like the Keystone XL pipeline are sidelined despite 
obvious economic benefit, skepticism that ``this time we mean 
it'' is natural. Freedom of the Internet and the global 
implications of this transition are far too important to let 
slip away because of another broken promise. There is no going 
back one we relinquish our oversight. This issue has united 
one-time opponents Bill Clinton and Newt Gingrich who are 
fighting to protect the Internet as we know it.
    Something as important as the future of the Internet 
demands a thoughtful and deliberate process, and I join my 
colleagues in supporting the DOTCOM Act. I commend 
Representative John Shimkus and full committee Vice Chairman 
Marsha Blackburn for co-authoring the measure, as well as Vice 
Chairman Latta, and Representatives Renee Ellmers and Joe 
Barton for their early support, and we plan to announce a 
markup schedule soon.
    The DOTCOM Act will step on the brakes until the Government 
Accountability Office is able to analyze all aspects and 
implications of the relinquishing of U.S. oversight, including 
potential national security concerns.
    While I do not oppose a vigorous discussion of whether and 
how we could transition the Domain Name System out of the 
Commerce Department's purview, we are a long way from seeing a 
proposal that I could support. As the world moves forward with 
this discussion, we will conduct vigorous oversight of the 
process and hold NTIA to their word that it will not allow the 
Internet to fall victim to international government power 
grabs. Our work continues.

    Mr. Shimkus. Thank you, Mr. Chairman. I would like to start 
with a clip of President Clinton and the founder of Wikipedia, 
Jimmy Wales, as part of my opening statement.
    [Video shown.]
    Mr. Shimkus. Mr. Chairman, I echo their concerns. As you 
know, I drew up the DOTCOM Act with Marsha last week. The main 
critics of that Bill seem to be saying that Congress being 
informed about the proposals presented to NTIA, and the process 
of how this transition would occur would somehow embolden our 
enemies. I find it hard to believe that the most transparent 
Administration in the history of the universe would not want 
the Congress to be informed on how this process would work.
    I look forward to the testimony of the witnesses, and 
hopefully we will get some clarity on how an open and 
transparent NTIA process--transfer process is beneficial to a 
free and open Internet.
    And I yield to Marsha.
    Mrs. Blackburn. Thank you. I thank the gentleman for his 
work on the DOTCOM Act.
    Mr. Chairman, I have to tell you, I thought when you were 
quoting Margaret Thatcher, and I am sure Ms. Eshoo and Matsui 
join me in this, I thought you were going to say, since we are 
talking communications, if you want something said, ask a man; 
if you want something done, ask a woman, which was also one of 
Thatcher's very famous quotes.
    We all know that the Internet has had a revolutionary 
impact. Part of this is due to its bottom-up government, and 
its open-ecosystem. And like many of my colleagues, I support a 
free market, multi-stakeholder model of Internet governance. In 
a perfect world, ICANN and IANA would be fully privatized and 
free from any government influence or control, however, 
realistically, we know that China, Russia, maybe other bad 
actors, have a different viewpoint. Their end goal is to have 
ICANN and IANA functions migrate to the U.N.'s ITU. That 
solution is one that I will never stand for or allow to occur. 
If the Commerce Department is going to relinquish control of 
its contractual authority over the IANA contract, and move 
control of DNS into a global multi-stakeholder community, the 
timing and architecture must be perfect. If this Administration 
wants to prove to Congress and the international community that 
they are serious about this process, they must immediately 
begin to end Net neutrality proceedings.
    Telling Congress and the international community that they 
are serious about relinquishing control, while working to 
promote Net neutrality, is disingenuous.
    I thank the Chairman. I yield back my time.
    Mr. Walden. Thank the gentlelady's comments. Now turn to 
the ranking member of the full committee, Mr. Waxman, for 5 
minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you, Chairman Walden, for holding this 
timely hearing on the National Telecommunications and 
Information Administration's recent announcement to begin the 
process of transitioning key Internet domain name functions to 
the global multi-stakeholder community.
    I want to welcome back Assistant Secretary Larry 
Strickling, and Ambassador David Gross. Your past testimony has 
greatly enhanced the committee's deliberations on issues 
related to Internet governance, and I want to thank Mr. Chehade 
for traveling half way around the world to take the time to 
testify before our subcommittee.
    This distinguished panel of witnesses highlights just how 
important this upcoming transition will be. This is a critical 
opportunity to reaffirm the United States' commitment to a 
multi-stakeholder approach to Internet governance and policy-
making. Since the late 1990s, the U.S. Government, under both 
Democratic and Republican Administrations, has consistently 
embraced the vision that a global Internet should be governed 
through a decentralized, bottom-up approach, with no single 
government or intergovernmental entity exercising control over 
its decision-making process.
    That commitment remains true today. The United States 
continues to stand up for the multi-stakeholder model time and 
again in international forums, while pushing back against 
countries that have sought an expansion of governmental 
control. Congress has also spoken unanimously in support of 
this multi-stakeholder vision, first to a bipartisan, bicameral 
resolution last Congress, then through legislation that passed 
the House last year that would make it the official policy of 
the United States to ``preserve and advance the successful 
multi-stakeholder model that governs the Internet.''
    I agree it is now time for the U.S. Government to take 
additional steps to fulfill this vision. For over 15 years, 
NTIA has played a limited procedural role in the administration 
of the domain name system. This responsibility, while 
ministerial, is associated with the perception that the United 
States serves as a steward of the Internet. I share NTIA's 
belief that this temporary stewardship should come to an end in 
the near future. The multi-stakeholder system has matured and 
gained legitimacy over the past decade. I am confident that the 
non-governmental Internet community will act as capable and 
responsible stewards of the Internet and fill the role left by 
NTIA, but the upcoming transition in no way suggests that the 
United States plans to relinquish control of the Internet to 
authoritarian states. President Clinton. To the contrary, our 
efforts should be seen as a vote of confidence that the 
successful bottom-up decentralized model will continue to 
preserve and protect the Internet as a free and open platform 
for commerce, innovation, and self-expression. NTIA has 
outlined key principles to guide the transition process, 
including a commitment not to accept any proposal that replaces 
the NTIA role with a government-led or intergovernmental 
organization like the ITU.
    Going forward, I hope the NTIA and ICANN will institute an 
open, transparent process for the consideration of transition 
proposals submitted by stakeholders. A period of notice and 
comment should be provided so that the decisionmakers have a 
comprehensive record to consider the merits of the proposals. 
This committee should monitor NTIA's and ICANN's effort 
closely, but we must resist the calls for reactionary 
legislation that would needlessly tie the hands of the Agency. 
Not only are these efforts inconsistent with Congress' 
longstanding and bipartisan support for the multi-stakeholder 
model, they also send a dangerous signal to the rest of the 
world that we lack faith in the existing multi-stakeholder 
system. That is why I hope it will work closely with our 
witnesses today throughout this transition process.
    And I thank you, Mr. Chairman. Yield back the balance of my 
time.
    Mr. Walden. Gentleman yields back the balance of his time. 
I think that covers all the opening statements we are allowed 
to do, so with this, we will go to our distinguished panel.
    And we will start with Mr. Larry Strickling, the Assistant 
Secretary for Communications and Information Administration, 
National Telecommunications and Information Administration. 
That has to be one of the longer titles in the communication 
world, Larry. Thank you for being with us. We look forward to 
your testimony.

  STATEMENTS OF LAWRENCE STRICKLING, ASSISTANT SECRETARY FOR 
  COMMUNICATIONS AND INFORMATION, AND ADMINISTRATOR, NATIONAL 
    TELECOMMUNICATIONS AND INFORMATION ADMINISTRATION; FADI 
 CHEHADE, PRESIDENT AND CEO, INTERNET CORPORATION FOR ASSIGNED 
 NAMES AND NUMBERS; AND AMBASSADOR DAVID GROSS, PARTNER, WILEY 
                           REIN, LLP

                STATEMENT OF LAWRENCE STRICKLING

    Mr. Strickling. Thank you, Chairman Walden, and Ranking 
Member Eshoo, and members of the subcommittee.
    I am pleased to be here to testify about NTIA's role 
working with ICANN and the domain name system, as well as our 
March 14 release announcing our intent to transition key 
Internet domain name functions to the global multi-stakeholder 
community.
    I am pleased to be joined today by Fadi Chehade, the CEO of 
ICANN, and Ambassador David Gross, who was involved in these 
issues when he served as the State Department coordinator for 
international communications and information policy during the 
Bush Administration.
    For 16 years, it has been the clear and unquestioned policy 
of the United States Government that the private sector should 
lead the management of the domain name system. In its 1998 
policy statement, the Department of Commerce stated that the 
U.S. Government is committed to a transition that will allow 
the private sector to take leadership for DNS management.
    Since then, the Department, through NTIA, has entered into 
a series of agreements with ICANN under which it performs what 
are known as the IANA functions. These include assigning 
Internet protocol numbers to regional registries, who then 
assign them to Internet service providers. Another function is 
the maintenance and updating of the root zone file of top level 
domain names, the so-called address book for the Internet that 
is necessary for the routing of Internet communications. ICANN 
performs these tasks at no cost to the U.S. Government.
    Our role in this process is simply to verify changes and 
updates proposed by ICANN to the root zone file before passing 
these changes on to Verisign, which actually maintains and 
updates the root zone file.
    ICANN, along with other Internet technical organizations 
such as the Internet Engineering Task Force, developed their 
policies through bottom-up, multi-stakeholder processes. These 
efforts are open to all stakeholders, whether they are 
businesses, civil society organizations, technical experts or 
governments who work in concert to reach consensus agreements 
on Internet policies. And I want to emphasize because I heard a 
number of references to U.S. control of policy-making at ICANN, 
and that is not the case. We do not exercise any control or 
oversight over policy-making. That is performed today by the 
global multi-stakeholder community, working at ICANN or at the 
IETF.
    Now, the U.S. Government has been a vigorous supporter of 
the multi-stakeholder model of Internet governance from the 
start, however, we are not the only ones. As Congresswoman 
Eshoo pointed out, in 2012, both Houses of Congress unanimously 
passed resolutions stating that it was the consistent and 
unequivocal policy of the United States to promote a global 
Internet free from government control, and preserve and advance 
the successful multi-stakeholder model that governs the 
Internet today.
    In furtherance of this clear congressional statement, on 
March 14, NTIA announced the final phase of the privatization 
of the domain name system by asking ICANN to convene global 
stakeholders to develop a proposal to transition the current 
role played by NTIA and the coordination of the domain name 
system. In making this announcement, we stated that the 
transition proposal must have broad community support, and must 
address 4 principles. It must support and enhance the multi-
stakeholder model, it must maintain the security, stability and 
resiliency of the Internet domain name system, it must meet the 
needs and expectations of the global customers and partners of 
the IANA services, and it must maintain the openness of the 
Internet. And we also made crystal clear that we will not 
accept a proposal that replaces the NTIA role with a 
government-led or intergovernmental solution.
    We asked ICANN, as the current IANA functions contractor, 
to convene the multi-stakeholder process to develop the 
transition plan. We informed ICANN that we expected it to work 
collaboratively with the other Internet technical 
organizations, including the Internet Society, the IETF, the 
Internet Architecture Board, and the Regional Internet 
Registries. Last week, at its meeting in Singapore, ICANN, 
working with these organizations, convened two public sessions 
to obtain stakeholder input on how to design the process to 
develop the transition plan, collecting several hours of public 
comment which will help craft a proposal for the process going 
forward.
    Stakeholders have responded to our announcement with strong 
statements of support. Among the business community, Microsoft 
hailed the announcement as a significant and welcome 
development. Cisco stated that it has long supported an open 
and innovative multi-stakeholder Internet governance process in 
this next step in its evolution. From civil society, just 
yesterday, a group of Internet freedom and human rights 
organizations, including Freedom House, Public Knowledge, Human 
Rights Watch, and the New America Foundation, welcomed NTIA's 
announcement stating that it would facilitate the exercise of 
human rights online.
    Our announcement in the process that is now underway to 
develop a transition plan benefits American interests. We 
depend on a growing and innovative Internet, and despite the 
symbolic role the U.S. Government has played over the years, 
the fact is that no country controls the Internet. Its 
continued growth and innovation depends on building trust among 
all users worldwide, and strengthening the engagement of all 
stakeholders. Taking this measure--taking this action is the 
best measure to prevent authoritarian regimes from expanding 
their restrictive policies beyond their own borders.
    I am confident that the global Internet community will work 
diligently to develop a plan that has the support of the 
community, and meets the four conditions. I want to assure all 
Members that before any transition takes place, the businesses 
civil society organizations and technical experts of the 
Internet must present a plan that ensures the uninterrupted, 
stable functioning of the Internet, and preserves its openness. 
Until such time, there will be no change in our current role.
    I also want to assure all members that even as the United 
States looks to transition out of this clerical role we play, 
we will remain strong and vigorous advocates for Internet 
freedom, growth and innovation. We will continue to play a 
major role on ICANN's governmental advisory committee, where 
governments develop consensus advice to ICANN on public policy 
matters, and we will continue in our role to enhance the 
accountability and transparency of ICANN through our 
participation in the accountability and transparency review 
teams established by the Affirmation of Commitments we signed 
with ICANN in 2009.
    I pledge to keep this subcommittee informed of the progress 
of the community's efforts to develop the transition plan, and 
to that end, I look forward to answering your questions this 
morning. Thank you.
    [The prepared statement of Mr. Strickling follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Walden. Mr. Strickling, thank you very much for your 
testimony and for always working closely with this 
subcommittee. We do appreciate that.
    Now, next up is the president and CEO of the Internet 
Corporation for Assigned Names and Numbers, Mr. Fadi Chehade.
    Mr. Chehade, thank you very much for rearranging your 
schedule to be here before this subcommittee. I think you can 
tell there is a lot of interest in what is being proposed.
    So the microphone is yours, sir.

                   STATEMENT OF FADI CHEHADE

    Mr. Chehade. Thank you, Mr. Chairman, Ranking Member, 
Members of the subcommittee. It is truly a pleasure for me to 
be standing before you today to testify.
    I was 18 when I came to this country alone, escaping an 
oppressive regime, and I came with one thing in my hand, 
because I had no money and I didn't speak English. I came with 
the belief in this open system, in this system that includes 
everyone, in a system that is truly bottom-up. My first boss at 
AT&T, I, of course, was addressing him as Mr. Green, and he 
kept saying, no, just call me Bob.
    I wrote a long letter to my parents about this. This only 
happens here, and it is these same values of openness, of 
inclusivity, of belief in the bottom-up, that it is from there 
that the best ideas come. It is that belief that makes me stand 
in front of you today. I am here because of that.
    And it is these same values that--multi-stakeholder of 
openness, inclusivity, bottom-up participation. It is a 
phenomenal invention of America. It is even as phenomenal as 
the Internet itself, that we bring everyone together to the 
table to decide how we govern things together. It is remarkable 
and it has also worked very well. That is what we should 
remember. We have now a $4 trillion digital economy in the G-20 
countries. This is all because of people, some of them in this 
room that I want to recognize, my own Chairman, Dr. Crocker, 
who, as kids in Van Nuys High School, decided to give it to the 
world, to build something that was distributed, powerful and 
enabled everyone to participate equally. We governed the 
Internet in the same way it works, and that should not change.
    That inclusivity and that openness guarantees that no one 
captures the system, in the same way the Internet is 
architected, and I am an engineer, I can tell you that the 
architecture works this way, and the governance should work 
this way. No one should capture it. And I agree with President 
Clinton that people will try to capture it, but they haven't. 
For 15 years, ICANN has operated without government--one 
government, or any government, capturing the decision-making. 
Private sector users, civil society, engineers, academia, all 
sit together and participate in the process of governing the 
Internet. It has worked remarkably well. Let us keep it this 
way.
    And I want today to thank you personally because I was at 
the WCIT when this body's resolution came to us as a strong 
lightning rod, showing America's commitment to the multi-
stakeholder model. We trusted it then, we should continue 
trusting it. It works. And we thank you for that. We thank you 
for that support. The world thanks you for that support and I 
do too.
    NTIA's announcement on March 14 is truly the culmination of 
15 years of progressive efforts by this Administration, by 
prior Administrations, to hand the stewardship of the Internet 
to the people who built it. We are not going to squander this 
responsibility. This is an important one. We, along with so 
many companies, welcomed that announcement. I think Assistant 
Secretary Strickling mentioned the many companies that have 
come out publicly, the many organizations from all walks of 
life, businesses, civil society supporting that announcement. 
They have looked at it and they have supported it, and we 
support it as well.
    This announcement shows the world America's values again. 
Who else would do that? What nation would have the vision, the 
magnanimity, the consistency to do what we are doing here. We 
are handing the world back what we promised them we would. 
Bottom-up, multi-stakeholder management of this great human 
resource, this great economic resource.
    I stand in front of you today with a firm commitment that 
we will run and open transparent process. We will keep it calm 
and wise. We have no rush. There is absolutely no rush. It is 
more important to get it right than to rush it. That is my 
commitment to you.
    We started the process in Singapore, thousands of people 
there, and at the heart of this proposal is the commitment for 
security, stability of the Internet. That is our number one 
job. We will not relent on that. We haven't for 15 years, we 
are not about to start that. That is our commitment.
    Thank you.
    [The prepared statement of Mr. Chehade follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Walden. Thank you, sir. We appreciate your testimony.
    Now for our final witness on this panel, we have Ambassador 
David Gross, partner at Wiley Rein. Ambassador Gross, good to 
have you back before our subcommittee. Thanks for your counsel. 
Please go ahead with your testimony.

                    STATEMENT OF DAVID GROSS

    Mr. Gross. Well, thank you very much, Mr. Chairman, Ranking 
Member Eshoo, members of the subcommittee. It is a great 
pleasure to be back before you again today.
    Mr. Chairman, if I may ask, I have a written testimony that 
I would like to have made a part of the record, if that is----
    Mr. Walden. Without objection.
    Mr. Gross. Thank you very much, Mr. Chairman.
    I am testifying today on behalf of the Internet Governance 
Coalition, which is a group of global companies and 
stakeholders that, as all of us are, are important players and 
stakeholders in the future of the Internet.
    Our primary focus, as you will see in our prepared 
testimony and my statement today, is our firm belief that a 
thriving Internet depends upon a governance structure that is 
open, transparent and representative of all stakeholders.
    I just returned yesterday from Dubai where I was a member 
of the U.S. Delegation to the ITU's World Telecommunications 
and Development Conference, part of the ITU's every-4-year 
conference. I come with a message that you will find similar to 
the messages that I have brought before you in the past, which 
is that the world is watching, the world is watching what NTIA 
announced back on March 14, the world is watching the U.S. 
reaction to that announcement, and the world is watching what 
here Congress does.
    It is important that the world understand the bipartisan 
and unanimous and uniform views of the American people, as 
expressed by this Congress. As you know, your role at the World 
Summit of the Information Society back in 2003, and most 
importantly in 2005, the role you played in the run-up to the 
WCIT just in 2012 was decisionally significant, the world 
watches. The world watches carefully, and the world understands 
when America acts in a united fashion.
    We believe very strongly that the process that was begun by 
NTIA back on March 14 is a good and important process. As has 
been discussed by all of you, as well as my co-panelists, that 
process is the beginning of a process, it is not an answer. The 
answer will come from the Internet community as requested by 
NTIA. It seems to me, based on my experience, that no one can 
predict what the specifics of that will be today, but I take 
great comfort, we take great comfort, in the four principles 
that were announced by Assistant Secretary Strickling, and 
importantly, as has been noted repeatedly, that NTIA, on behalf 
of the U.S. Government, will not accept a proposal that 
replaces NTIA's role with a government-led or intergovernmental 
organization solution.
    I had a boss when I was in the private sector who used to 
say and remind all of us of a very important saying, promises 
made, promises kept. That is what is expected of all of us. 
That is what we will be working hard to ensure, that the 
promises made by NTIA are promises kept by all of us, to ensure 
that that standard, that test, that high bar that was 
established in the March 14 statement is one that is met by 
all, and, as my co-panelists have indicated, if for some 
reason, to our great surprise, it cannot be met, we should 
start over. It should not be rushed. It needs to meet that high 
test. We are all in agreement on that.
    The key going forward is to ensure the extraordinary 
benefits of the Internet not only for the American people, but 
for people around the world. It is truly one of the great 
historic achievements of our generation. It is something to be 
maintained, it is something to be encouraged, and our view is 
that the process that has been begun is designed to do that.
    The time will come in the future to discuss in detail what 
substantive proposals are brought forward, and their nature and 
whether or not they are in the public interest or not, but at 
this stage, we are very comfortable, very, very comfortable, 
that the process that has begun is an important one, it is a 
real one, it is one that all of us who are optimistic believe 
it will result in a better Internet, a better Internet 
governance situation, and one that would include the fact that 
promises made by the American people back beginning in 1998 are 
promises kept by all of us.
    Thank you very much.
    [The prepared statement of Mr. Gross follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Walden. Thank you, Ambassador, and thanks to all of our 
witnesses on this first panel. I appreciate your counsel and 
your testimony.
    So, Mr. Strickling, thank you again for being here. Thanks 
for briefing us ahead of time before the announcement.
    How will NTIA ultimately decide whether a proposed 
transition plan for IANA developed by global stakeholders is 
acceptable, and what factors will you use to determine if such 
a proposal supports and enhances the multi-stakeholder process, 
maintain security, stability, resilience, in the Internet 
domain name system, and meets the needs and expectations of 
global customers and partners of the IANA services, and 
maintains the openness? So what--describe for us, what is that 
process, and once you--what authority do you have to hand this 
off and back away?
    Mr. Strickling. Well, you have asked a number of questions 
there. Let me take up the last one initially, which is that our 
role in this historically derives from the decision made in the 
late 1990s to privatize this, and at that time, NTIA was 
directed to find an organization to perform those roles. So we 
don't do this under any statutory mandate to perform this role. 
It was done as part of the efforts of the government back in 
the late 1990s to privatize. So other----
    Mr. Walden. But you do have a contract with----
    Mr. Strickling. Yes.
    Mr. Walden [continuing]. ICANN----
    Mr. Strickling. Yes.
    Mr. Walden [continuing]. That is renewable for two, 2-year 
additions, right?
    Mr. Strickling. That is correct, Mr. Chairman. So the last 
contract that we did with them in 2012 has an expiration date 
of September 30, 2015, but we have within that contract the 
ability to extend it for up to 2----
    Mr. Walden. Right.
    Mr. Strickling [continuing]. Two-year terms beyond that. So 
as Ambassador Gross said, we have plenty of time to work 
through these issues. We have certainly teed-up the September 
2015 as a date that the community might want to use as a 
target. That is 18 months. Should give the community ample time 
to work on this, but there is no cliff. If--at--when we reach 
that time, we don't have a proposal presented to us.
    Mr. Walden. But if you have that proposal presented to you, 
and I want you to get to what the criteria would be, you would 
go through, and I think you have highlighted some of that in 
your statement, but is it in effect saying I am done with the 
contract with ICANN?
    Mr. Strickling. Yes. I think if we get to a point, and when 
we get to the point where there has been an appropriate 
transition plan presented that satisfies all the criteria, the 
idea would be that that -- whatever is in that plan would then 
be put into effect, and we would then be able to just allow our 
contract with ICANN to expire.
    Mr. Walden. And then is there ever any getting that 
contractual relationship back to NTIA, or is that it for the 
U.S. in terms of any contractual role with ICANN? Are they on 
their own then?
    Mr. Strickling. It depends, I think, on what comes back to 
us in the transition plan, but we do not envision that we would 
then come back and ever contract for the IANA functions at any 
point in the future.
    Mr. Walden. All right.
    Mr. Strickling. Again, the whole point of this in the late 
'90s was to identify someone who could take this over and----
    Mr. Walden. Sure.
    Mr. Strickling [continuing]. Manage it. Again, it is----
    Mr. Walden. No, I understand that.
    Mr. Strickling [continuing]. At that point in time, it was 
viewed that this transition would have been complete by the 
year 2000, as Congresswoman Eshoo pointed out. So some might 
ask what has taken us so long----
    Mr. Walden. Sure.
    Mr. Strickling [continuing]. But----
    Mr. Walden. Now, in Mr. DelBianco's stress test scenarios 
in his testimony, I assume you have had a chance to read 
through them.
    Mr. Strickling. I have.
    Mr. Walden. He raises some questions that I think are valid 
to raise. What happens if ICANN decides to reconstitute itself 
overseas rather than California, out from under the laws, what 
happens if they go their separate way and things--start doing 
things that Mr. Chehade would never agree to, but he might be 
gone someday. So----
    Mr. Strickling. So we have a separate document that we 
signed with ICANN called the Affirmation of Commitment.
    Mr. Walden. Right.
    Mr. Strickling. And I think we have been up here and have 
testified on that in the past. We have not in any way 
implicated that agreement in any of what we are proposing now. 
It is under that document that ICANN has committed to keep its 
headquarters in the State of California, or in--within the 
United States.
    Mr. Walden. But that can be canceled by either party, 
correct?
    Mr. Strickling. Yes, there is a----
    Mr. Walden. With 120 days notice.
    Mr. Strickling [continuing]. Provision under which it can 
be canceled, and you can certainly inquire of the CEO, his 
intentions with that--in regard to that. Our understanding is 
that they are quite comfortable maintaining a California 
office, and intend to do so for the foreseeable future, but he 
can answer----
    Mr. Walden. Yes, and I am looking like beyond all of us, 
you know, what happens----
    Mr. Strickling. Right.
    Mr. Walden [continuing]. Twenty years from now.
    Mr. Strickling. Let me come back to the----
    Mr. Walden. Sure.
    Mr. Strickling [continuing]. Point you started with, which 
were the questions that are raised by Mr. DelBianco we think 
are important ones, and they really deal, I think, with the 
symbolic nature of our relationship with the ICANN. I think 
reflected in many of the comments we heard this morning, that 
people, I think, assume we have much more control over this 
than, in fact, we do, and it is largely symbolic, and I do 
think it is important as we work through this transition to 
focus not just on the technical issue of who is going to check 
the accuracy of root zone file updates, but to also look at the 
question of how does ICANN continue to perform in an 
accountable and transparent way, the belief being that we 
always were there, in effect, to backstop that----
    Mr. Walden. Right.
    Mr. Strickling [continuing]. In some fashion. I think that 
is a very important set of questions that need to be answered 
in this process. We intend to participate vigorously in that 
because we and other American business and civil society 
interests have a stake in that as well----
    Mr. Walden. Right.
    Mr. Strickling [continuing]. And that is part of the 
process.
    Mr. Walden. And I have overshot my time. Thank you very 
much.
    Now turn to the gentlelady from California.
    Ms. Eshoo. Mr. Chairman, I would like to go to my 
colleagues, and I can go last. So I don't know who was here 
first. Mr. Doyle?
    Mr. Doyle. We were both here together.
    Ms. Eshoo. OK. Well, whomever--Mr. Doyle and then----
    Mr. Walden. Are you asking them----
    Ms. Eshoo [continuing]. And then----
    Mr. Walden [continuing]. Or yielding?
    Ms. Eshoo. Yes--no, I will yield my time.
    Mr. Walden. You are passing. You are yielding or----
    Ms. Eshoo. No, I will pass--whatever is the best, how is 
that? I----
    Mr. Walden. I would assume you want to just defer to Mr. 
Doyle and not give up your time.
    Ms. Eshoo. Yes, I will----
    I will question last, how is that?
    Mr. Walden. That is fine.
    Ms. Eshoo. OK.
    Mr. Walden. The Chair would now recognize Mr. Doyle for 5 
minutes.
    Mr. Doyle. Thank you, Mr. Chairman. And--wow, are we 
getting that same--thank you for your testimony today. I think 
just your testimony has gone a long way in clearing up, I 
think, some of the misconceptions that have come from this 
announcement.
    Mr. Strickling, I--you know, when you talk about 
stakeholders, tell us, who are the stakeholders? I mean name--
give us some of the names of the people in this multi-
stakeholder process we are talking about. Who are we really 
talking about?
    Mr. Strickling. So at the broadest level, it is anyone 
interested in these issues, and, in fact, that is large 
American companies as well as small and medium-sized----
    Mr. Doyle. Like AT&T, Verizon----
    Mr. Strickling. Yes.
    Mr. Doyle [continuing]. Comcast----
    Mr. Strickling. Yes, all of those.
    Mr. Doyle [continuing]. Google, Facebook, Yahoo?
    Mr. Strickling. Yes.
    Mr. Doyle. Right? This is what--these are--this is what we 
are talking about.
    Mr. Strickling. Right.
    Mr. Doyle. And who else is in this stakeholder process?
    Mr. Strickling. The civil society organizations who are so 
focused on Internet freedom and free flow of information are 
part of this process. Again, you will hear from a 
representative of them in the second panel, and they have 
issued statements of support in that regard. Technical experts 
have been at the core of this from the beginning. Folks like 
Vint Cerf, Bob Kahn, Steve Crocker, who is in the audience 
today.
    Mr. Doyle. Right. So what we are talking about really is an 
evolution of transitioning this to the private sector, right? I 
mean this is like a--I don't believe NTIA controls ICANN. I 
think that is pretty clear, that you have an administerial 
role, you don't control the process, but I would think my 
colleagues over here would love the notion that the government 
is transferring something over to the private sector----
    Mr. Walden. Would the gentleman yield for just----
    Mr. Doyle. Sure, I will yield, Mr. Chairman.
    Mr. Walden [continuing]. For clarification, because I think 
also part of ICANN, there is a government influence as well, 
right, on your board?
    Mr. Strickling. Yes, there is a government----
    Mr. Walden. But nobody controls ICANN.
    Mr. Doyle. Right.
    Mr. Walden. So, to the point, yes.
    Mr. Doyle. So we don't--it is not like we are giving up 
control of something. We don't control it. So I--that is the 
point I wanted to make. And the stakeholders we are talking 
about are private companies, and civil society and civil--
right? I mean that--I just think that needs to be said publicly 
because you used that word stakeholders, and a lot of people 
don't seem to understand what we are talking about.
    Let me ask you something else, Mr. Strickling. When you 
were proceeding with this announcement, did you consult with 
other branches of the Federal Government, like the State 
Department, the Department of Defense, intelligence agencies 
and other agencies with a stake in U.S. national security and 
foreign policy?
    Mr. Strickling. Yes.
    Mr. Doyle. And when you did that, did any of these branches 
of government object to your announcement on the basis that it 
would have a negative impact on U.S. foreign policy or national 
security?
    Mr. Strickling. No.
    Mr. Doyle. So, Ambassador Gross, let me ask you. After the 
United States transitions the IANA contract, what will be the 
means for our government to participate in the multi-
stakeholder process?
    Mr. Gross. Well, I think there are two pieces to answer to 
that important question. One is, as has been indicated, the 
U.S. Government has participated in the GAC, which is the 
Government Advisory Committee, which is a committee of ICANN, 
and based on the testimony and, of course, our understanding 
that will continue as it has in the past. The second part 
though I think has yet to be determined, that is, the question 
is on the IANA functions themselves, and the relationship 
between the U.S. Government and those functions, it has been 
asked by NTIA of the Internet community, asking ICANN to be the 
convener, for the specifics of what a proposal would look like. 
I think it is premature for any of us to know the true answer 
to your important question until we see what that proposal 
actually looks like.
    Mr. Doyle. And just one last question. How can Internet 
governance bodies like ICANN and IGF and others preserve a free 
and open expression on the Internet, and push back against some 
of these governments that are restricting speech online by 
blocking citizens' access to services like Wikipedia and 
YouTube and Twitter and others? What can we do to push back 
against that?
    Mr. Gross. Well, first and foremost, we need to ensure that 
ICANN continues as it has in the past to be committed, as Mr. 
Chehade has indicated today, its commitment to making sure that 
the Internet continues to be open? NTIA importantly said that 
that is one of the primary criteria that it will be looking at 
as it evaluates whatever proposal comes forward from the 
Internet community. And also if I may suggest that the United 
States Government, writ large, all branches of the Government, 
need to continue to do what they have been doing for years now, 
which is to speak loudly, speak clearly, and speak to this 
issue on an ongoing basis, both with friends and with foes. It 
is important to be consistent. I am pleased at how consistent 
the U.S. Government has been. It should continue to be so.
    Mr. Doyle. Mr. Chairman, I see my time is almost over. 
Maybe, Mr. Strickling, do you want to react to that question 
too in the last 10 seconds?
    Mr. Strickling. I think the ultimate end of this has to be 
to continue to build and support stakeholders throughout the 
world, because what--the strongest push against these kinds of 
restrictive policies in these countries is to have a citizenry 
and a community in those countries that push back from within, 
and ultimately that is what it is going to take to end these 
policies.
    Mr. Doyle. Mr. Chairman, thank you. I yield back.
    Mr. Walden. Thank the gentleman.
    We now turn to the vice chair of the subcommittee, , Mr. 
Latta, for 5 minutes.
    Mr. Latta. Well, thank you very much, Mr. Chairman, and 
again, thanks very much to our witnesses for being here today. 
It is very, very important to the folks in this room and across 
the country.
    Mr. Strickling, if I could just ask you a couple of 
questions right off the bat. You know, Ohio is very fortunate 
to have the Cleveland Clinic in our state, and it is, you know, 
it is not only nationally known but worldwide renowned for what 
it does. And Cleveland Clinics applied to operate a .med top 
level domain name. Are you familiar with that?
    Mr. Strickling. I am.
    Mr. Latta. OK. For the record, Cleveland Clinic's 
application was rejected, and has since been filed--has filed a 
request for reconsideration.
    Mr. Strickling. That is correct.
    Mr. Latta. OK, and we are concerned, you know, across the 
state about the transparency and predictability of ICANN's 
current process regarding the request for reconsideration, and 
how this transition of NTIA's oversight responsibilities might 
further impede the process. Are there any assurances that NTIA 
can provide that the transition of ICANN's IANA functions will 
not negatively impact the status of the current applicants' 
filings being reviewed by ICANN?
    Mr. Strickling. Right. It will have no impact on that.
    Mr. Latta. So right now, so the folks that have got 
applications out there, you can say there is no impact at all 
then, is that correct?
    Mr. Strickling. Not on the basis of this announcement, no.
    Mr. Latta. OK, and then without the NTIA oversight, will 
NTIA ensure that any multi-stakeholder proposal accepts include 
rigorous transparency and openness standards for ICANN 
processes going forward?
    Mr. Strickling. Absolutely, and not just that, but we 
expect to see that same level of transparency throughout the 
process to develop a plan.
    Mr. Latta. OK, thank you.
    Mr. Chehade, if I could--and I hope I said that correctly, 
are there current policies in place at ICANN to promote that 
transparency and openness in its processes, and again, as you 
have heard from the testimony this morning and also from your 
attendance at the WCIT, you know, we had hearings last year 
when we heard about different countries that wanted to go 
beyond what was supposed to be proposed at that meeting, and so 
you are looking at some of the countries looking at trying to 
use the guise of cyber security and things like that to really 
get at the Internet and the censorship of the Internet. You 
know, how can we really make sure that we can tell our 
constituents and people across the country that, you know, as 
we go forward, that there is going to be that transparency and 
openness in the process?
    Mr. Chehade. I think the commitment of ICANN to 
transparency is enshrined in our affirmations. We should live 
by these, and I can assure you that since I have arrived, I 
have put additional resources and effort to ensure that we 
adhere to our transparency mechanisms, we continue to keep 
every process we make open, we make sure it is inclusive, that 
anyone can participate. We now translate everything we do in 
all the U.N. languages, plus Portuguese. Ensure that people can 
participate in all of our meetings remotely, even when they 
can't be there. Transparency is at the center and the heart of 
what we do.
    Mr. Latta. If we can just follow up. You said that there 
would be additional resources that you would be committing. 
What are those additional resources?
    Mr. Chehade. So these are people that are engaged in making 
sure that all of these processes are recorded, are made 
available openly, that people can participate when they need 
to, and ensure that no one can say that we did some process 
quietly, quickly or without full availability of participation 
for everyone.
    Mr. Latta. OK, thank you. And then also is there more that 
ICANN can be doing to improve upon those policies and ensure 
that the applicants for domain names are fully informed and 
aware of the organization and structure of the ICANN processes?
    Mr. Chehade. There is always more we can do, and since we 
have arrived, this ICANN Administration has added systems for 
managing the stakeholders' relations, we have more than tripled 
now the size of the team that is supporting applicants. We have 
made sure that that team is available globally, 24 hours a day, 
5 days a week, so there is a series of things we have done to 
actually enhance the service to the applicants and ensure that 
they are well informed of what we are doing.
    Mr. Latta. Well, thank you very much, Mr. Chairman, and I 
will yield back the balance of my time.
    Mr. Walden. Gentleman yields back the balance of his time.
    The Chair now recognizes the gentlelady from California, 
Ms. Matsui, for 5 minutes.
    Ms. Matsui. Thank you, Mr. Chairman, and I thank the 
Ranking Member.
    I really am very much involved and interested in governance 
because I think governance is key to everything, whether it is 
a government, whether it is a non-profit organization, city 
council or whatever, and I believe that, in particular, this is 
a huge undertaking. And I know we have kind of marched through 
this for 15 years, but I think now in particular, the Internet 
is at a different place, obviously, and the participants in the 
Internet are huge, it is global. So my sense is that, in the 
governance model, it is unlike many others in the sense that, 
as we move along giving more and more voices or stakeholders to 
be addressed. So my sense is that I am glad that you are taking 
your time because I think that is really very important, 
because as more and more information goes forward, I think that 
you will have more and more stakeholders.
    I am really pleased that the Administration, Mr. 
Strickling, has really committed to support no proposal that 
really does not support a free and open Internet. I think that 
is really very important as a principle moving forward. And I 
do recall, since I was in the Clinton Administration, how this 
process moved forward, and I don't think any of us really 
envisioned quite where it would be today as far as even the 
users of the Internet. However, having said that, it is really 
huge in the sense of where we are today, and this is not about 
creating headlines at all. It is real, and it is about ensuring 
that the Internet governance transition moving forward is 
responsible to Americans and the whole digital economy.
    And so I want to know something about this in a sense 
because, Mr. Strickling, do you think there are any other 
processes or procedures that should be put in place to ensure 
ICANN reviews the proposals by stakeholders in an open and 
transparent way?
    Mr. Strickling. We have not asked ICANN to be a reviewer of 
proposals. We have asked them to convene the process by which 
the community will develop a proposal to submit to us. We 
expect that we will get a proposal that is--has the support of 
the community and meets the criteria we have laid out for it. 
So there is no process by which there is some judge over at 
ICANN who is going to be a decision-maker on this, it is what 
emerges from the community discussions in the form of a 
community proposal to us.
    Ms. Matsui. OK, well, thank you. And, Mr. Chehade, you were 
very eloquent in your testimony. It really does indicate to us 
why this Internet and ICANN is so important moving forward.
    So, therefore, Mr. Chehade, can you commit to a--I mean we 
are saying this over and over again, but I think it is really 
important, an open and transparent process for the deliberation 
of any transition proposal that will provide an opportunity for 
notice and comment, not only to organize civil society and 
well-financed stakeholders, but also now, you know, to the 
general public, because we have participants that are worldwide 
here.
    Mr. Chehade. Absolutely. If we do not do that, the process 
should not be accepted by NTIA, in our opinion. In other words, 
we are expected to do this. We will do it. Without it, this 
process is not legitimate.
    Ms. Matsui. OK.
    Mr. Chehade. And not only are we going to do it within the 
ICANN community which is growing and vast now globally, we will 
reach out to other communities, we will hold public 
consultations at the IETF, we will hold public consultations 
with the regional Internet registries, we will hold public 
consultations with the Internet society globally. We already 
announced an extensive schedule of listening and bringing to 
consensus all the communities towards a proposal that will be 
acceptable to NTIA.
    Ms. Matsui. Will this also include other communities like 
academic communities and, generally speaking, a broader 
community which generally isn't part of the so-called Internet 
organizations?
    Mr. Chehade. The answer is yes. In fact, I--we are in 
discussions right now with the Harvard Berkman Center and the 
NYU Governance Lab in New York to actually--along with multiple 
universities around the world, start the process to have the 
academic community participate in the future of where we are 
heading here. So absolutely.
    Ms. Matsui. And also too, I am wondering whether, you know, 
think about governance, are you also consulting with people who 
deal with governance, and what works and what doesn't work? 
Now, this is a whole new, I think, level of governance, so to 
speak, because we are dealing with something, in a sense, that 
touches every sector of society, every sector of business, 
every sector, and we don't know yet what is going to be 
happening down the road. So I think it is important to 
understand what could happen and may not happen, and----
    Mr. Chehade. Yes. The answer is absolutely yes. We have to 
be using the same innovation that led us to the Internet in the 
process of designing that process.
    Ms. Matsui. Yes.
    Mr. Chehade. So we met--I met with Professor Joseph Nye, we 
are meeting with Professor Beth Noveck at NYU, many, many 
academics around the world who understand how to innovate and 
governance to make them part of the process.
    Ms. Matsui. OK. Well, thank you very much.
    Yield back.
    Mr. Walden. Gentlelady's time has expired.
    The Chair now recognizes the gentlelady from Tennessee, 
Mrs. Blackburn, for 5 minutes.
    Mrs. Blackburn. Thank you, Mr. Chairman. And I will note 
for the committee and those present that Mr. Rekeda, who worked 
with us on the DOTCOM Act, walked back with me from Budget 
Committee where I am splitting my time today so that he could 
be a part of our hearing.
    Mr. Strickling, first to you. Getting ready for the 
hearing, I went back and looked at some of the WCIT-12 
comments, Ambassador Verveer had made a quote, and I wanted to 
ask you if you agree with this. He says, ``Discussions with 
figures in various governments around the world, there is a 
very significant reoccupation with respect to what we are 
proposing with respect to broadband, and especially with 
respect to Net neutrality. The proceeding is one that could be 
employed by regimes that don't agree with our perspectives 
about essentially avoiding regulation of the Internet, and 
trying to be sure not to do anything to damage its dynamism and 
its organic development. It could be employed as a pretext, he 
is talking about Net neutrality, or as an excuse for 
undertaking public policy activities that we would disagree 
with pretty profoundly.''
    You agree with that statement?
    Mr. Strickling. I guess I neither agree nor disagree 
because I don't know the context in which it was stated. I 
think it is a statement from a few years ago. I can state that 
it has not been put into the record by governments in the 
fashion that it sounds like Ambassador Verveer feared at the 
time.
    Mrs. Blackburn. Well, do you think that the U.S. could set 
a better example about Internet governance and a multi-
stakeholder approach to Internet government by stopping the 
push for Net neutrality?
    Mr. Strickling. I think the best example the United States 
can set is to proceed with the proposal that we made on March 
the 14th.
    Mrs. Blackburn. Yesterday, Michael O'Rielly, who is one of 
the FCC commissioners, issued this statement. At this pivotal 
moment for Internet freedom, the FCC's Net neutrality 
proceeding could severely contradict and underestimate the U.S. 
Government's international position.
    So how can the U.S. Government tell the world to accept a 
multi-stakeholder model, while at the same time the FCC is 
working with the White House's approval to impose greater 
control of the Internet through Net neutrality?
    Mr. Strickling. Your question?
    Mrs. Blackburn. How can the U.S. Government tell the world 
that they want them to accept a multi-stakeholder process when, 
within our government, the FCC is pushing forward to implement 
Net neutrality rules?
    Mr. Strickling. Well, I think we are comparing apples and 
oranges.
    When we are talking about international Internet 
governance, we are talking about governments acting 
collectively----
    Mrs. Blackburn. Sir, I think that a lot----
    Mr. Strickling [continuing]. In this space----
    Mrs. Blackburn [continuing]. Of innovators had conflated 
the two, and I think that that is truly a problem with us, that 
there has been a conflating, and we are not setting a good 
example on that.
    You referenced the affirmation document, .8 of that, which 
would mean that the governance for the Internet--for ICANN 
would stay domiciled in the United States. Do you expect that 
to hold?
    Mr. Strickling. I do, but you have the CEO right next to 
me----
    Mrs. Blackburn. And I plan----
    Mr. Strickling [continuing]. You might ask him directly.
    Mrs. Blackburn [continuing]. To ask him. I am going to go 
directly to him with that question.
    So, Mr. Chehade, to you, would you expect that to hold?
    Mr. Chehade. I do. It has worked very well for us. It has 
worked very well for the world, so I think before any change--
--
    Mrs. Blackburn. What would keep it from changing?
    Mr. Chehade [continuing]. We should be conscious of that. 
Pardon?
    Mrs. Blackburn. What would keep it from changing?
    Mr. Chehade. To keep the model that is working to the 
world, working well, by supporting the model that works. The 
more we try to exert one government's influence on the model, 
the more people will want to move it elsewhere. The more we 
show them that we support the multi-stakeholder model, the more 
they will say this works.
    Mrs. Blackburn. Well, then--and I want to say I appreciate 
the conversation that I have had with you, and I know that you 
have a difficult task in front of you because there is such a 
low level of trust with this Administration. And I would just 
ask you, sir, when we look at a multi-stakeholder model that is 
free from government control, what kind of message is this 
Administration sending if the FCC continues to push forward 
with regulation of the Internet and Net neutrality standards?
    Mr. Chehade. Again, from my perspective, the best example I 
can continue giving the world is that the U.S. Government is 
united behind the multi-stakeholder model that enabled the 
Internet and ICANN. And I will continue seeking your support 
for that.
    Mrs. Blackburn. Would your job be easier if the FCC stopped 
being an activist agency and trying to force Net neutrality?
    Mr. Chehade. I am making my job easier by clarifying to 
people that what ICANN does have nothing to do with content. We 
are just managing names and numbers, and we will do it well, 
and I hope that the success of our work in this area spreads in 
the world, not just in the U.S., but in the world.
    Mrs. Blackburn. Thank you.
    Yield back.
    Mr. Walden. Gentlelady's time has expired.
    Chair now recognizes the gentleman from New Mexico, Mr. 
Lujan, for 5 minutes.
    Mr. Lujan. Mr. Chairman, thank you very much. And I know, 
although we are here to talk on a specific topic, it seems that 
the hearing has turned towards Net neutrality as well.
    And as we talk about the basic structure associated with 
the United States and the FCC, making sure that they are 
inserting themselves into this conversation, I think lends to 
what we are talking about today; keeping things open, making 
sure that everyone can access, that--and I appreciate this from 
our staff as well, Mr. Chairman, on the minority side, open 
Internet rules are not government regulation of the Internet. 
Net neutrality is about ensuring the broadband service 
providers that control the onramps to the Internet don't become 
the gatekeepers with the power to favor their own content, 
troublesome applications or block consumers' access to 
information. And I think that is an example to the rest of the 
world, as we talked about this, not a hindrance to the rest of 
the world. So I hope that we are able to find some agreement 
there as well.
    Mr. Chairman, my questions today center a bit around the 
Affirmation of Commitments, to talk a little bit about that, 
but I think that, you know, I agree with some of my colleagues 
on this committee that we need to send a strong message to the 
world that the Internet has thrived under a decentralized, 
bottom-up, multi-stakeholder governance model, and that we 
should all commit ourselves to the free market, multi-
stakeholder Internet governance model that has worked so well 
in the past. And those are quotes from 2012 and 2013 by one of 
my colleagues as well, and I wholeheartedly agree with her, and 
hope that we can find a way to work together in this area as 
well, but in the area with the Affirmation of Commitments, 
specifically from a response from NTIA that the affirmation is 
an agreement that includes multi-stakeholder oversight 
mechanisms to address accountability, transparency in ICANN's 
decision-making, the security, stability and resiliency of the 
Internet DNS, as well as promote competition, consumer trust 
and consumer choice.
    How do you envision the Affirmation of Commitments will 
function after the management of the DNS is completely 
privatized?
    Mr. Strickling. So we haven't, in our announcement, done 
anything to suggest it needed to change at all. We recognize 
though that as the community starts to address the questions of 
ICANN accountability, that the matters covered in the 
affirmation which you just summarized may well come into that 
discussion, and we certainly have no problem with that being 
the case. In the meantime, we will continue to press for 
increased accountability and transparency, although I will say, 
from my own experience of having served on 2 of the 
accountability and transparency review teams, the 2 that have 
happened so far, ICANN is about the most accountable and 
transparent organization I have dealt with. That is not to say 
it can't be improved, and indeed, out of the last team we 
presented I think more than a dozen recommendations of 
additional steps ICANN can take. And that will always be the 
case. We will always be able to find things they can do to 
improve, but the progress that they have made over the last 4 
years in this area has been quite substantive, and was part of 
the factors leading us to make the announcement we made 2 weeks 
ago, that it was now time to proceed with the final phase of 
the privatization.
    Mr. Lujan. I would just add that I hope that the 
Affirmation of Commitments becomes and will always be a staple 
associated with the transition, as well as the permanency 
associated with this conversation.
    And another question that I have is, what is Verisign's 
role and responsibility? I know that when we go to Web sites, 
you see the Verisign there, and it is to encourage trust to 
individuals, but what exactly does that Verisign mean?
    Mr. Strickling. So Verisign is a large company involved in 
a number of different places in the Internet. So, for example, 
most people know them through the registry from DOTCOM, which 
is the largest of the top level domain names. With respect to 
the IANA functions, the specific role they perform is that 
after ICANN, through its policy-making process, sends to us a 
change for the root zone file, we verify its accuracy, we pass 
it on to Verisign who actually performs the updating of the 13 
authoritative root zone servers with that information. So that 
is the specific role they play with respect to IANA.
    Mr. Lujan. And, Mr. Chairman, if I may, I--as my time runs 
out, I think what that translates to is Verisign--or is saying 
that this Web site is coming from where. It says that it is 
coming from, but I hope that the committee would entertain a 
conversation down the road with trust, with best practices, 
that we as consumers can also use down the road, which is not a 
topic for today, but one I think that we can explore to help 
consumers down the road to make sure that when they are seeing 
information, they know exactly what it means, as opposed to 
seeing Verisign, as some constituents have reached out to me 
and said, they completely trust the content, and those that are 
behind what is being moved, as opposed to the DNS being tied to 
where the IP protocol is coming from.
    Thank you, Mr. Chairman. I appreciate the hearing today.
    Mr. Walden. Thank you very much, and thanks for your input. 
I think that is a very good point.
    We will go now to the former chairman of the committee, the 
gentleman from Texas, Mr. Barton, for 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman.
    First of all, let me say to Mr. Chehade we rarely have 
testimony that is inspirational, but yours was. I mean I wish 
we had a copy of that to show school children what America is 
all about. That really was moving to me.
    So I will ask you the first question.
    Have you ever heard of the phrase, if it is not broke, 
don't fix it? Well, when I was listening to you, and I am at 
this point neutral but suspicious of this proposal, it dawned 
on me, everything you said, I agree with. If it is working, 
what is so wrong with the current system that we want to change 
it?
    Mr. Chehade. Thank you, Congressman.
    I do believe that there is a confusion as to what NTIA has 
announced. What is working will not change. ICANN's work to 
administer these functions is already with us, has been with 
us, and we have managed it well for 15 years. That is not about 
to change, and I think the stability of that is important. It 
sends the right message to the world.
    What is changing is the accountability mechanisms, really 
the stewardship that the U.S. Government has kept over our 
activity. Today, that is shared between the U.S. Government and 
our community. In fact, it is not just the U.S. Government that 
ensures we do what we say we need to do. We go through reviews 
with the engineers at the IETF who meet me every quarter, check 
on my performance. So there are other mechanisms already in 
place to make sure we do what we do.
    The role that the U.S. played progressively became smaller 
over the years, and has now become largely symbolic. By letting 
the multi-stakeholder model take that role and strengthen our 
existing mechanisms to make sure we are accountable, we are 
sending a message to the world that we trust the multi-
stakeholder model. They need to hear that. And today more than 
ever, we need the world to hear that because other issues of 
Internet governance are coming up in the world. We want them to 
look at ICANN and say this is working, and the multi-
stakeholder model works.
    Mr. Barton. It is a little bit of a stretch, but, after 
World War II, we put U.S. troops in Japan, we put U.S. troops 
in Germany. Seventy years later, sixty years later, the world 
has changed but we still have some U.S. troops in Germany and 
some U.S. troops in Japan. The Internet got started in the 
United States, and to the credit of lots of people, we have 
tried to decentralize and have the government step back and 
assume more of an administerial or just a kind of an oversight 
role, but what gives the world community faith in the Internet 
is that they know they have the full faith and credit of the 
U.S. Government behind it. And our ideals as established in the 
Declaration of Independence and the U.S. Constitution are for 
openness and transparency. If ICANN were to decide to move its 
headquarters to North Korea, that might not hold true. So I 
read your little booklet here, which is very informational. You 
give the Department of Defense a run for their money on 
acronyms, I will tell you that, but what people like me, I am a 
free market guy, and I can intellectually understand what you 
are attempting to do, but there is just at the back of my mind 
there is that old Reagan phrase, trust but verify. And that is 
what we don't want to give up. I have no problem with this 
multi-stakeholder community, and I looked at all your 
organizations and all that, but people like me are a little bit 
afraid that if NTIA steps back, and we just get--so there is 
not that real kind of FDIC guarantee, so to speak, to use a 
banking analogy, that the next government that might want to 
try to do something, the Chinese, the Russians, who knows, they 
might not take the same attitude as the U.S. Government. That 
is what people like me are concerned about.
    And my last question, and my time has expired, is there any 
country that is not a part of ICANN?
    Mr. Chehade. Yes. We have 133 countries represented now, 
over the attendance, beyond government representatives is now 
covering almost all countries in the world.
    And I want to say if I could, Mr. Barton, that I actually 
100 percent agree with you that we must have the right belts 
and suspenders on the proposal we give back to the U.S. 
Government. And, frankly, if it doesn't, I will be the first 
one to not submit that proposal.
    Mr. Barton. OK. Well, that is my concern.
    And with that, Mr. Chairman, thank you for your courtesy 
and I yield back.
    Mr. Walden. Absolutely. Thank you, Mr. Barton. Thank you, 
Mr. Chehade.
    We will now turn to the gentleman from Pennsylvania, Mr. 
Doyle, for 5 minutes. Mr. Doyle, you already went? I am sorry, 
then I would be delighted to go to Ms. Eshoo.
    Ms. Eshoo. Maybe we should note that it is a first for a 
Ranking Member--the last shall be first, how is that? That is a 
great quote from scripture.
    Well, I want to thank each one of you because I think that 
this is really one of the best panels we have had before the 
subcommittee. Each one of you has been outstanding. You are 
rooted in very broad and deep experience, and we are very 
grateful to you.
    And, Mr. Chehade, I think that you make the case this 
morning in such an elegant and eloquent way, that immigration 
is the lifeblood of our nation. You wouldn't be before us if 
that were not the case. And I wouldn't be here as a first 
generation, none of us would, if that wasn't one of the great, 
great values of our country. So thank you to each one of you 
for your testimony.
    It seems to me that we are all saying the same thing, 
except there is kind of a hairball in this thing. I would think 
that multi-stakeholder, all the companies and corporations, the 
private sector that have weighed on a multi-stakeholder model, 
would be so embraced by every single colleague here, but we 
have fear of moving away from U.S. Government-perceived 
control, to the control of some bad actor countries. Now, that 
is a huge leapfrog when we go from NTIA to North Korea, but 
really that is what the fear is on this side of the aisle. What 
I am concerned about is, and Ambassador Gross underscored this, 
is that everything we say, everything we do is being measured, 
especially by the countries that do not agree with our 
principles, our Democratic principles that are built into the 
Internet.
    So can someone give the assurance to this notion that, 
regardless of how the Congress voted, 413 to zip, with all of 
the principles that were in it, that somehow we are weakening 
the path forward and that the bad guys, the bad actors in the 
world, will be able to snatch this away from us and do to the 
Internet what they do to their own people, because I really 
think that is the central question that is here, because that 
is the fear, and fear is--if you list human emotions, it is the 
top one.
    So who would like to go at that and perhaps develop some 
comfort level here with my colleagues?
    Mr. Strickling. So I will start, but I think this is a good 
question for everyone on the panel.
    So first off, I understand the concern, but it is not going 
to happen, partly because one of our key conditions is we will 
not accept a proposal that turns this over to a government-led 
or intergovernmental organization, so it is off the table.
    Ms. Eshoo. Yes.
    Mr. Strickling. Frankly, I am not sure we needed to say 
that, and--because I don't think there was ever any prospect we 
were going to get a proposal like that. The multi-stakeholder 
community, again, formed by civil society organizations and 
large, small, medium-sized corporations, would never have 
brought a proposal like that back to us.
    I am not sure what people see is the possible mechanism by 
which an authoritarian regime would seize control of the domain 
name system. I think it is an unlikely thing to occur, but one 
way to prevent it from ever occurring is to make sure we have 
strong multi-stakeholder groups in countries such as in the 
developing world who would have to be part of any process to 
try to----
    Ms. Eshoo. Yes, but I just want to interrupt.
    Mr. Strickling [continuing]. Move U.N. control.
    Ms. Eshoo. You know what happens around here though is that 
someone or a group makes a statement and then it becomes a 
fact. And more than anything else, I think that is what has 
happened, and there are some outside of this institution that--
I am not going to go there because it is not worth it, but I 
would just like both Mr. Chehade and Ambassador Gross to go at 
this. I only have 19 seconds, and I would also like to ask 
unanimous consent to place in the record statements of support 
from really the father of the Internet, Vint Cerf, the former 
FCC Commissioner, McDowell, the Internet Association, Cisco, 
and a letter from 6 NGOs. So with what I have--well, I have----
    Mr. Walden. Without objection----
    Ms. Eshoo. Thank you.
    [The information appears at the conclusion of the hearing.]
    Mr. Chehade. Well, I will simply say that--to Mr. 
Strickling, if he had not put that condition, I would have made 
sure it is put.
    Ms. Eshoo. Yes.
    Mr. Chehade. So this is an important condition, and I 
understand Mr. Strickling's comment that it wouldn't have 
happened, but it is good for the world to understand that this 
is impossible to happen. It will not happen, and I believe we 
will come back with a proposal that allays all these fears.
    Ms. Eshoo. Yes. Yes. Thank you.
    Mr. Gross. And the only thing I can add is we have a 
commitment from people to my right that no proposal that will 
allow that will go forward. We have a commitment from the U.S. 
Government that no such proposal could be accepted. And on 
behalf of our constituents, we will be watching.
    Ms. Eshoo. Excellent. Thank you, Mr. Chairman, and thank 
you to the witnesses. Just an outstanding panel.
    Mr. Walden. Thank the gentlelady for her comments.
    And now we will go to Mr. Shimkus from Illinois for 5 
minutes.
    Mr. Shimkus. Thank you, Mr. Chairman.
    Mr. Strickling, as you know, I introduced the DOTCOM Act 
last week with several of my colleagues as co-sponsors. Is NTIA 
opposed to the Government Accountability Office providing to 
Congress prior to a transition of IANA functions, are you 
opposed to a Government Accountability Office review to ensure 
what you have testified today is true?
    Mr. Strickling. Well, Congressman, as I understand it, you 
can request a GAO study----
    Mr. Shimkus. Well, my question is----
    Mr. Strickling [continuing]. When you----
    Mr. Shimkus. My question is do you oppose us asking for a 
Government Accountability Office review to ensure your 
testimony today, that we have comfort in that?
    Mr. Strickling. I see--it doesn't really matter what I 
think. You can request that study.
    Mr. Shimkus. No, I--you are here--I am--do you oppose or do 
you say it is not a big deal, go ahead?
    Mr. Strickling. I am in favor of full discussion of these 
issues.
    Mr. Shimkus. So you----
    Mr. Strickling. I am happy to talk to you----
    Mr. Shimkus. But you agree? So you support a Government 
Accountability Office review, you--it could be helpful?
    Mr. Strickling. I neither support nor oppose it. I am 
simply telling you----
    Mr. Shimkus. I wish Mr. Dingell was here.
    Mr. Strickling [continuing]. That----
    Mr. Shimkus. If I was--if I am Mr. Dingell, yes or no, 
would you support a Government Accountability review of this 
transition?
    Mr. Strickling. Again, I have no problem full airing in 
discussion of these issues.
    Mr. Shimkus. So I guess I am going to take that as a yes.
    Mr. Chehade?
    Mr. Chehade. I do not have a view on a particular----
    Mr. Shimkus. You all made great promises.
    Mr. Chehade. But having said that, I will commit to you, as 
I did yesterday, that everything we were asked to do, we will 
do in full transparency to you and to the world.
    Mr. Shimkus. So a Government Accountability Office review 
of this proposal should not be a challenge or a risk to you?
    Mr. Chehade. I think reviews by anyone, and there will be 
many around the world of our accountability in that process----
    Mr. Shimkus. So I guess I can assume that as----
    Mr. Chehade [continuing]. Making----
    Mr. Shimkus [continuing]. As a yes.
    Mr. Chehade. Well, again, as I told you yesterday, ICANN is 
a global organization.
    Mr. Shimkus. No--I have only got 2 minutes--I have like 3 
questions, and if I have time, I would be happy to. Ambassador 
Gross.
    Mr. Gross. I would like to associate myself with the prior 
comments----
    Mr. Shimkus. You know----
    Mr. Gross [continuing]. But I will say that more 
information is better.
    Mr. Shimkus. Thank----
    Mr. Gross. The process should be open, should be 
transparent, more information is always helpful.
    Mr. Shimkus. And we understand the GAO is the Government 
Accountability Office. It is our arm, it is nonpartisan, it 
looks, it evaluates to ensure that things that we are concerned 
with, we have another look, which is what you all are saying. I 
am actually kind of shocked at the frustration of this because 
I think it would help bring more education, more transparency, 
and maybe resolve some of the fear.
    Ambassador Gross, what is to prevent a multi-stakeholder 
model from then choosing to transition to a government-led ITU 
model of Internet governance?
    Mr. Gross. I think you have gone to the very core of what 
will be required of any proposal going forward. The problem we 
all have, and I include myself in this, is that at the moment 
we are at the beginning of a process. To answer your question, 
your important question, we have to know the answer at the end. 
We don't know that. The question now becomes one for the 
community, the Internet community, to come up with a creative, 
important and belt-and-suspenders answers so that the question 
you asked if fully answered.
    Mr. Shimkus. Yes, and don't you think we have a right to 
ask these questions?
    Mr. Gross. I think----
    Mr. Shimkus. And----
    Mr. Gross [continuing]. Absolutely so.
    Mr. Shimkus. And the government to do the investigation to 
find out some of these answers?
    Mr. Gross. I think that it is completely up to all of you--
--
    Mr. Shimkus. Thank you.
    Mr. Gross [continuing]. To be able to figure out what your 
comfort level is.
    Mr. Shimkus. Thank you.
    Mr. Chehade, I have been involved in eastern European 
issues my whole career up here. What is the current Internet 
country code for the Crimea region of Ukraine? Is it .RU or is 
it .UA?
    Mr. Chehade. Again, we follow what the U.N., in terms of 
country codes, we follow the U.N. coding. So even when south 
Sudan was created, we had to wait for the U.N. to issue the 
actual code, and then that is when we----
    Mr. Shimkus. So you don't know right now of any plans to 
change that?
    Mr. Chehade. No.
    Mr. Shimkus. Thank you.
    I am going to end there. I just want to highlight to my 
friends here on both sides, we take an oath to support and 
defend the Constitution against all enemies, foreign and 
domestic. We take that seriously. I don't pledge to some 
international organizations or governments. Due diligence by 
the Legislative Branch of this Government is not harmful to 
this process; in fact, I would argue that it could be very, 
very helpful, and I appreciate your testimony in support of 
that.
    And I yield back.
    Mr. Walden. Gentleman yields back.
    Chair now recognizes the gentleman from Nebraska, Mr. 
Terry, for 5 minutes.
    Mr. Terry. Thank you, and I think everyone has the same 
theme, and, in a way, it is kind of asking the same questions, 
but I want to use a different terminology, at least.
    We talk about you won't accept, Mr. Strickling, the 
proposal and you wouldn't accept as the CEO the proposal. I 
think a lot of our, not just trust but questions, are what 
happens after the proposal is accepted.
    I think all of us in this room have probably experienced 
some bait and switch at some point in time, whether it was a 
meaningful fraud, or things just, OK, you have this new 
governance and it develops its own personality, and over time 
they expand their abilities and what they can cover, or what 
they determine provides certainty within the system. And so I 
want to ask the whole panel, what happens when a scenario 
occurs where they start expanding the power, for example, 
saying, geez, if that Web site is going to use too much band 
width, where--you have to put up so much money, or there has to 
be some conditions tied to that. How do we prevent that from 
occurring, and a new stakeholder group accepting that, when 
there is no NTIA to verify, hey, that is not within your 
jurisdiction, because it sounds like once they develop the new 
governing body of ICANN, that there is no more check left. And, 
frankly, and we have heard it, we don't trust Russia or China 
when they are sitting on there, or Iran or now Turkey, to make 
policy decisions. And I know we are only talking about domain 
names, but they can sit there and say this is tied to a domain 
name, because we are not going to issue you a domain name or a 
root because. Mr. Strickling?
    Mr. Strickling. Well, again, I think that this apprehends 
what we do today. The policy-making in ICANN today is performed 
by the multi-stakeholder community.
    The United States participates in that process, not through 
the IANA functions contract, but through our participation in 
the Governmental Advisory Committee. That is not changing. We 
are not going away. As I said in my opening statement, we will 
remain vigorous advocates for a free and open Internet through 
the Government Advisory Committee, and we will be joined in 
that by a number of other likeminded governments participating 
in that. So----
    Mr. Terry. All right, help me work through that because 
that is somewhat confusing to me. So now today, as I 
understand, like if France, on a root file, ICANN approves it 
but then it comes to you for just the double check 
verification.
    Mr. Strickling. In terms of----
    Mr. Terry. There is no entity, once the proposal is 
accepted, there is no entity then other than just the ICANN 
Board. So if they make a mistake, there is no one there to 
verify it now. Is that correct?
    Mr. Strickling. Well, our role doesn't even necessarily 
look back at the Board process. What we look at is kind of the 
technical accuracy, and it is kind of a checklist to make sure 
that what is being sent through followed all the appropriate 
procedures to come through, and we verify its accuracy.
    First off, the policies probably aren't going to be as 
specific as your example in terms of some specific request----
    Mr. Terry. But we don't know.
    Mr. Strickling [continuing]. From France. What?
    Mr. Terry. We don't know that.
    Mr. Strickling. Well, but it would still be based on the 
overall policy for top-level domains established by the 
constituency organizations within ICANN. So if your example is 
dealing with .FR, the country code, that is one supporting 
organization at ICANN. If France, the government, is dealing 
with generic top-level domain, that goes to a separate 
supporting organization. So that is here the policy-making is 
done, and in those sessions you have the people who are 
involved in those different communities participating in 
answering those questions. So that, today, happens through a 
multi-stakeholder process, and then the Governmental Advisory 
Committee sits separately to resolve public policy issues that 
may emerge out of the policy-making that is happening in these 
other organizations, and it is there that, through consensus 
policies, the governments can speak to particular issues.
    Mr. Terry. Anyone else?
    Mr. Chehade. Well, I could add, Congressman, that, as part 
of our proposal our community is going to be very alert to put 
these belts and suspenders in that proposal to avert the 
potential down the line of things going awry. We don't know 
what this will look like, as Ambassador Gross said. We need to 
get the community involved in designing that process, but you 
heard today mention by one of the panelists on a panel coming 
up that there are ideas for testing various models to test 
this. I am sure our community that doesn't let me change the 
brand of coffee in my cafeteria, I have thousands of people 
watching everything we do, will be on top of that, and will 
make sure that the proposal comes back with the right 
guarantees as best we can that this thing does not go the wrong 
way.
    Mr. Terry. OK. Yield back.
    Mr. Walden. Gentleman yields back balance of his time.
    Chair now recognizes the gentleman from Louisiana, Mr. 
Scalise, for 5 minutes.
    Mr. Scalise. Thank you, Mr. Chairman. Appreciate you having 
this hearing. Appreciate our panelists for being here as well. 
This is an issue that I know a lot of us are real concerned 
about as we look at all the questions, and potential 
ramifications that are involved in the NTIU making any changes 
to the ICANN process and the multi-stakeholder process that 
works so well. I have been a strong supporter of an open and 
free Internet, and especially free from governments that have 
an interest in taxing, restricting, censoring the Internet and 
the ability of its people to use it, and all the power that 
people have been empowered with to do the things that they have 
done because of it. So I know I support Congressman Shimkus' 
bill that he is going to be bringing forward, the DOTCOM Act, 
that puts some of those belts and suspenders that you are 
talking about in place to slow this thing down and say let us 
get a real clear picture of what we are looking at, because 
there are a lot of unanswered questions when we look at the 
ramifications of this. I don't find it often where I can quote 
the Heritage Foundation and Bill Clinton in the same sentence, 
both in support of the same thing, but just last week I think 
you may have heard Bill Clinton express concerns about this, as 
did the Heritage Foundation, and even the Washington Post, and 
the concern was that giving up ICANN could ``open the door'' to 
nations that don't value an open and free Internet. And just to 
go one step further, this is an actual quote from former 
President Clinton, ``A lot of people have been trying to take 
this authority away from the U.S. for the sole purpose of 
cracking down on Internet freedom, and limiting it and having 
government protect their backsides instead of empowering their 
people.'' These are serious concerns being raise by, again, 
people that don't always see eye to eye, but share a lot of the 
concerns that I and many of our colleagues have expressed.
    So first, I would like each of the panelists to just real 
briefly, if you can, touch on those concerns that are being 
expressed by people that aren't always on the same page.
    I guess we will start with you, Mr. Strickling.
    Mr. Strickling. So I will refer back to my statement at the 
opening, which is we won't let that happen, number one.
    Mr. Scalise. What is an assurance of that? I mean it is 
good to say we won't let that happen.
    That is nice to hear it, but nobody knows what is going to 
happen. You can't tell me what is going to happen.
    Mr. Strickling. Well, but I am----
    Mr. Scalise. How do you know you won't let it happen?
    Mr. Strickling. I am saying that we will not accept a 
proposal that has that as its outcome, period, end of story. So 
it won't happen. Secondly, no one has yet explained to me the 
mechanism by which any of these individual governments could 
somehow seize control over the Internet as a whole.
    Mr. Scalise. You really don't think that Russia----
    Mr. Strickling. Explain----
    Mr. Scalise. Look, Russia and China have made it very clear 
what they want to do to suppress Internet freedom. They have 
made it very clear.
    Mr. Strickling. And they do it within their own country.
    Mr. Scalise. And you don't think----
    Mr. Strickling. There is nothing we can do to stop that.
    Mr. Scalise [continuing]. That they are going to be 
working--whatever rules you come up with, at the end of the 
day, you all would come up with some sort of process if you are 
going to transfer away, and I say if, capital I, capital F, if 
you transferred away, because you would come up with some sort 
of process. Do you really not think that Vladimir Putin, with 
all the other things he is busy with right now, isn't going to 
try to figure out some way to get control, it won't be through 
the Russian government directly, necessarily, but China and 
Russia have proven very resourceful at trying to figure out 
what that process is so that they can manipulate it. And you 
can do all the things you want to stop that from happening, but 
at the end of the day it comes out to where those countries 
have figured out a way, like they have figured out a lot of 
other ways too, to do something subversive that goes against 
all of the intentions that we have. You can't stop that.
    Mr. Strickling. Well, Congressman, what is it that you 
think they could do that they can't do today?
    Mr. Scalise. Well, do you really think--look at Putin is 
doing right now. I know the President just doesn't seem to take 
this seriously what he is doing through eastern Europe. I mean 
he is trying to rebuild--get the old band back together, get 
the Soviet Union back together right now, before our very eyes.
    I mean Secretary of State Kerry says, oh, the international 
community won't accept this. They are doing it. They don't care 
what the international community thinks. And they are talking 
about invade--they are invading a country, you know, so I mean 
what would they do to get control of the Internet if you threw 
something out there? Again, I mean these are real concerns that 
are being expressed. If the other two panelists can touch on 
this as well.
    Mr. Chehade. Thank you, Congressman.
    Let me be clear that at ICANN, it is impossible for them 
today to do so. They have been trying for 15 years.
    Mr. Scalise. Exactly. Which is why----
    Mr. Chehade. They have not.
    Mr. Scalise [continuing]. Why it is working.
    Mr. Chehade. But it is not because the U.S. actually has 
the current stewardship role, it is because of the multi-
stakeholder model. It stops them. Now, where they will try to 
do what you are suggesting is in the international, 
intergovernmental organizations.
    Mr. Scalise. Yes.
    Mr. Chehade. They have been trying to do that there. So we 
want to take away from them any argument that they can still go 
to the U.N. and try to take over what ICANN does, by making 
sure ICANN is free of one government control, to show them that 
ICANN believes in the multi-stakeholder model, and this great 
country that created that model trusts it.
    Mr. Scalise. Thanks. And, Mr. Gross, real quick because I 
know I am almost out of time. The Administration right now is 
getting ready to participate in the 2014 Internet Governance 
Forum in Istanbul, Turkey, a country that, as we speak, is 
blocking its citizens from access to Twitter. Why are we even 
participating in a sham like this?
    Mr. Gross. Well, I think it is important to recognize that 
the Internet Governance Forum is a non-decision-making, multi-
stakeholder process. It has no authority to do anything.
    Mr. Scalise. Why would we validate----
    Mr. Gross. Even----
    Mr. Scalise. Why would we validate the things that they are 
doing, that I would hope the Administration is opposed to, by 
attending that conference?
    Mr. Gross. I would take a different approach. I would 
recommend taking a different approach, is that those who 
believe in the free flow of information ought to attend and 
speak loudly about the importance of free flow of information. 
It is the people of Turkey, among other places, that need to 
hear it and feel supported, not ignored. So it seems to me it 
is an opportunity for us to be strong in our beliefs there, and 
not shy away from it.
    Mr. Scalise. Well, I would appreciate if you all would look 
at the legislation that Mr. Shimkus is bringing forward because 
I think it does go back to putting those protections in place 
that we all ought to be concerned about with people that don't 
have good intentions, that will try to figure out how to get 
around this.
    So thank you. Thank the panelists. Thank you, Mr. Chairman. 
Yield back the balance of my time.
    Mr. Walden. The gentleman yields back.
    The Chair now recognizes the gentleman from Kentucky for 5 
minutes.
    Mr. Guthrie. Thank you, Mr. Chairman. Thank you for being 
here. And, Secretary Strickling, thanks. We worked on spectrum 
together. I appreciate that.
    And I would just like to say, Mr. Chehade, you just said 
that they would try to work the international organizations. I 
know this isn't really on the subject I wanted to go, but I 
know when Mr. Shimkus asked about whether Ukraine was going to 
be RU versus--.RU versus dot, whatever Ukraine, you said that 
is up to--you would follow the U.N. on that. So is there a 
little inconsistency there? I mean I just have a question. And 
real quick because I really want to get to my----
    Mr. Chehade. No, country codes in many ways are set by 
standards--ISO standards that come out, so that we don't make 
up countries, we follow the country code model that is in 
place.
    Mr. Guthrie. And Mr. Scalise quoted President Clinton and 
the Heritage Foundation. Ms. Eshoo, my friend from California, 
said the issue over here and she put over here on us is that 
our concern was the countries could take over, countries we 
don't want taking over the Internet take over use of the 
Internet. And I understand Secretary Strickling said it can't 
happen, and there is really not a mechanism for that to happen, 
will not happen, will not accept it. I know that you had a 
great presentation, Mr. Chehade, on American values, American 
exceptionalism, as I would say, and so when we go into these 
negotiations, we always want everybody to say we want to do 
this because America--this is what America does, we create 
multi--but not every other country does that.
    And so I will get to my question. You said there is really 
no mechanism, Mr. Strickling, for that to happen. You say we 
won't accept, so make it what Mr. Shimkus asked but in this 
way, you say we won't accept any plan from Mr. Chehade or any 
group that is not accountable and transparent. So what 
parameters or what will you be looking for in terms of 
accountability and transparency? And I think Mr. Gross kind of 
answered that in saying, well, we don't even know what it is 
because they haven't developed it yet, but we need to go in, at 
least, knowing what we know and knowing what we are looking 
for. And what would you be looking for in an accountable and 
transparent program?
    Mr. Strickling. We need to see, and again, ICANN has made 
great strides in this over the last several years, the fact 
that the multi-stakeholder community feels that the decisions 
that they are making, the policies that they are developing, 
are being executed as they have directed them. And so we look 
to how ICANN actually performs in that respect, we look at what 
the mechanisms are that are in place to ensure that ICANN 
performs in that fashion. And again, this has been the subject 
of 2 accountability and transparency review teams that I have 
personally participated on in 2010 and 2013, and we will 
continue to push for those sorts of improvements throughout the 
next period of time while this plan is being put together, and 
beyond, because as I said earlier, the organization can always 
find ways to improve in that regard.
    Mr. Guthrie. But when you look for something transparent, 
is there something specific going in that you are--I want to 
see that they are able to allow us to have annual public 
audits, they--or what--or, Mr. Chehade, what would you offer up 
as these are going to show that the ICANN organization that you 
chair would be transparent in a way that is a solid plan to 
know not only that it can't happen now, but that concerns what 
happens when we are all gone, to get to Mr. Shimkus' model, 
the--I think Mr. Yeltsin signed the Budapest Memorandum. Well, 
Putin didn't get the memorandum. And so how do we kind of 
ensure this going further, and those are the--kind of the 
concerns we have, and they are real concerns.
    Mr. Chehade. Yes, and they are real concerns and they are 
ones we take seriously. I want to assure you of that. We do not 
belittle the possibility of us going into the wrong mode, so we 
have to be alert, we have to be vigilant. We need all these 
companies that supported this move to remain engaged, because 
they have been for 15 years, and to watch what we do.
    From my side, operationally, I need to make sure that every 
part of this process is open, is transparent, is inclusive, 
that we don't simply do it in a suburb, hiding in a room, and 
people around the world can't see what is happening. They need 
to participate. We have remote participation at these meetings, 
multiple translation. Meaning inclusivity, openness and 
transparency have to underpin this process or it is not 
legitimate to this government or to anybody in the world. And 
that is our commitment.
    Mr. Guthrie. And let me just say in my last 20 seconds, so 
when we are speaking and speaking from our role in the 
government, we do know that we are exceptional, and Americans 
expect freedom and opportunity and things that are forward, and 
we also know that other governments don't have that, and it is 
internal, their governments are doing it now. What we are doing 
now is not preventing them from doing it. We understand that, 
but that is what people understand, so we have got to be very 
careful and very transparent, very accountable if this process 
moves forward so people can be confident that we are going to 
have the same opportunities that we have without relinquishing 
our American exceptionalism, or our American ideals to other--
an international body.
    Thanks. I have just ran out of time. I appreciate it.
    Mr. Walden. Thank you very much. The gentleman yields back.
    The Chair now recognizes for 5 minutes the gentleman from 
New Jersey.
    Mr. Lance. Thank you very much, and good morning to the 
distinguished panel.
    I would like the panel to know that I have received a good 
deal of correspondence on this issue, and certainly those in 
the district I serve are concerned about the situation, and I 
want to work to the greatest extent possible to allay the 
concerns of the constituents whom I represent. And the district 
is a well-educated district and certainly wants access to the 
greatest extent possible across the globe.
    I support Mr. Shimkus' legislation. To you, Secretary 
Strickling, if the legislation were to pass both Houses of 
Congress and reach the President, I know you have indicated, 
sir, that you are neither for it nor against it, would you at 
the least not oppose it if it were to reach the President's 
desk?
    Mr. Strickling. Well, Congressman, I think, as you know, 
Administration positions on legislation are developed through a 
process that hasn't happened yet on this bill, so I couldn't 
speak to that.
    Mr. Lance. Thank you. Certainly, Mr. Shimkus doesn't need 
me to lobby for his legislation, but I do support his 
legislation, and I would hope that the Administration might 
work in a cordial fashion with Mr. Shimkus as the situation 
moves forward.
    Mr. Strickling. So as I told the Congressman, and I will 
repeat to you and to the other members, we are committed to 
keeping this committee advised and informed of the process as 
we work our way through it. We expect to be up here on a 
regular basis, perhaps not with all of our friends and 
neighbors, but we will do what we can to keep you advised and 
informed of the process as it moves forward.
    Mr. Lance. Thanks, Secretary. To that end, I do have a 
question, and perhaps you have just answered it. You are 
willing to advise Congress of the proposals submitted for the 
transition and commit, I would hope, to delay action until you 
have briefed Congress on the consequences of accepting any of 
the proposals?
    Mr. Strickling. We will keep you fully informed, yes, sir.
    Mr. Lance. Thank you.
    To the other distinguished members of the panel, I want to 
reiterate the concerns of my constituents, and I would like to 
work in a fashion where we are effective to make sure that this 
be as open a process as possible. And, obviously, it is the 
unanimous view of members of this subcommittee, I would presume 
of members of the House and Senate, that we want an open and 
transparent process, recognizing that freedom across the globe 
is essential as we move forward in this area.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Latta [presiding]. Well, thanks very much. The 
gentleman yields back the balance of his time.
    And seeing no other members here to ask questions, I want 
to thank, on behalf of Chairman Walden, our distinguished panel 
for being here today. Appreciate it. And we are now on our 
second panel. Thank you.
    Well, thank you very much. We will convene the second panel 
at this time. And the Chair would first like to recognize Steve 
DelBianco, the Executive Director of NetChoice. And we 
appreciate you being here, and the mic is yours for 5 minutes. 
Thank you very much.

 STATEMENTS OF STEVE DELBIANCO, EXECUTIVE DIRECTOR, NETCHOICE; 
AND CAROLINA ROSSINI, PROJECT DIRECTOR, NEW AMERICA FOUNDATION 
                   OPEN TECHNOLOGY INSTITUTE

                  STATEMENT OF STEVE DELBIANCO

    Mr. DelBianco. Thank you, Mr. Chairman, members of the 
committee.
    If you look back across 16 years and three different 
Administrations, I think you will see that our government has 
protected ICANN and helped it to mature. You might also see 
that the U.S. cannot retain that unique role forever, and you 
might also admit that politics today are forcing a discussion 
to begin on the transition.
    You have heard complicated concepts and acronyms all 
morning long, so how about a simply analogy? Think of a car and 
a driver. So the top-level domain table, think of it as a car. 
It was designed and built here in the U.S.A. in 1990, and the 
license plate on this car reads I-A-N-A, IANA. In 1998, we 
asked for a designated driver on this car, and we created ICANN 
to fulfill that role. Then we handed the car keys to ICANN, and 
giving them the authority to make policies while driving that 
car, but we monitored what they did in the care of the car. 
Then in 2009, we figured ICANN was mature enough to be given 
some independence, and we did that under the Affirmation of 
Commitments, but all along, the U.S. Government retained the 
title to that car. The IANA car was kept by the U.S. That 
became leverage for us to hold ICANN accountable for the 
symbolic powers that Secretary Strickling mentioned earlier.
    NTIA's announcement that you are debating today doesn't say 
what happens to the title for IANA. It doesn't say it at all. 
It is possible that the community proposal would have NTIA sign 
the title over to ICANN, but that is not a foregone conclusion. 
It might be that we sign the title over to an independent 
multi-stakeholder entity that could then hold ICANN accountable 
the way NTIA has for 16 years.
    Now, NTIA's principles for the transition are great as far 
as they go, but to hold ICANN accountable and to prevent 
government capture after we sign over the title, we need more 
than just principles. We have to ask how any proposed mechanism 
would respond to potential scenarios or stress tests.
    So back to the car-and-driver analogy. We can tell our 
teenagers about the good principles of driving carefully in the 
winter, but it is the stress tests to have them respond to 
having the car spin sideways on a snow-covered road. In today's 
testimony, I suggested several stress tests and used case 
scenarios, and our task is to develop accountability mechanisms 
that could answer to those tests at least as effectively as the 
mechanism we have today, the NTIA oversight.
    So I mentioned stress tests in there, like what if ICANN 
lacked the financial or technical capability to actually 
execute its obligations, who would rescue the root in that 
case. I gave richer examples in there, like example scenarios 
six and seven on Internet censorship. Today, censorship happens 
at the edge of the Internet where governments can block a 
domestic access to a Web site. As you know, Turkey is blocking 
Twitter inside the country, even though the rest of the world 
can see Twitter.com. But consider a stress test where 
censorship migrates from the edge of the Internet to the core 
of the Internet, which is the root table that we are talking 
about here, that is used by the entire world. ICANN's 
Government Advisory Committee, or GAC you heard today, they can 
change their operating procedures at any time. They can change 
from the consensus they have today to majority voting, which is 
what they are used to at the United Nations. There were only 61 
governments who showed up at the ICANN Singapore meeting, so 31 
governments would have been enough for a majority. So let us 
say that those governments advise ICANN that the new 
TLD.corrupt, the .corrupt top-level domain, must get government 
permission for any domain that matches the name of a government 
official. After all, top-level domains already need that kind 
of permission for city and territory names in new top-level 
domains, so it seems like a relatively easy matter for them to 
approve a brand new policy on permission.
    The question is what would ICANN's Board do in that stress 
test. If the future Board felt very seriously threatened by the 
ITU and U.N., as Ms. Rossini will warn you in a moment, then it 
might not have the guts to reject that kind of advice coming 
from governments. So how could our new mechanism resist that 
pressure? It should be at least as strong as the present 
arrangement where a government with First Amendment in its DNA 
would reject censorship in the DNS.
    So I will conclude by saying most of the questions you have 
asked today probably can't be answered today. So we have to 
continue the process of developing proposals, and then we can 
ask how each of those proposals would answer the stress tests 
and questions. We can design a new accountability mechanism for 
ICANN, possibly with independent and external safeguards, and 
above all, let us be realists about the risks as we head down 
this road, but let us begin as optimists that we can arrive 
safely.
    And I look forward to your questions.
    [The prepared statement of Mr. DelBianco follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Thank you very much for your testimony today. 
And the Chair now recognizes for 5 minutes Carolina Rossini, 
Project Director of the Internet Governments and Human Rights 
Program at the Open Technology Institute at the New America 
Foundation. Welcome.

                 STATEMENT OF CAROLINA ROSSINI

    Ms. Rossini. OK. Members of the subcommittee, sirs and 
madams in the audience, I am very pleased to testify before you 
today.
    The views I share with you today are those of the Open 
Technology Institute at New America Foundation, but are also of 
Public Knowledge. Although I speak only for OTI and PK, I am 
also a member of a broader U.S.-based coalition of public 
interest nonprofits brought together to advocate for Internet 
governance systems that preserves the open, free, generative 
and global Internet, organizations that have a vested interest 
in promoting the free flow of information online. This 
coalition is guided by human rights principles, and evolves 
based on processes that are democratic, inclusive, open, 
transparent and consensus-based, what we often call multi-
stakeholder processes. We share concerns that in this 
transition, the Internet must continue to be an open platform 
for the free exercise of human rights online, and we believe 
this move could help hinder government overreach in Internet 
governance, which would have harmful implications for human 
rights worldwide. This is a critical step in the history of the 
global network of networks.
    Three are my main key points today. First, we welcome the 
Department of Commerce proposal transfer of oversight of key 
Internet domain name function to the global multi-stakeholder 
community which we are part of. This represents a fulfillment 
of many years of U.S. promises to the private sector, technical 
experts and international community at large. We have cleared 
that the NTIA will not accept a proposal that replaces its role 
with government-led or any intergovernmental organizations 
schemes, and we commend NTIA to not forego its contract with 
ICANN if a set of four principles previously mentioned and 
explained is not met by the final proposal.
    A transition on this set of terms would be fully consistent 
with prior bipartisan unanimous policy by the Congress that has 
sought to preserve and advance the multi-stakeholder governance 
model under which the Internet has thrived. Those resolutions 
were an act of U.S. leadership, and I stress that, 
international leadership, in the advance of the WCIT conference 
a couple of years ago.
    Second, we encourage the subcommittee to view the oversight 
of the DNS system through the lens of human rights. Freedom of 
expression and the spread of democratic ideals around the 
globe. Yesterday resolution offered by members of the 
subcommittee calling for Internet freedom in Turkey is a proof 
that we are on the same page. And today, we call for that 
vision to be spread and applied to all of the layers of the 
Internet.
    Third, we believe that if proposed transfers do not go 
through, the--political outcomes can be disastrous. For 
stalling the transferring of the IANA functions to the global 
multi-stakeholder community could further empower critics who 
favor a government--a governance model, a governmental or 
intergovernmental model of Internet governance, whether 
implemented through the ITU or some other government-dominated 
no multi-stakeholder body. In this current international 
context, the DOTCOM Act may actually place into the hands of 
those who use the Internet as an instrument of political 
control.
    My final remarks. The pragmatic truth is that the United 
States cannot afford to maintain the symbolic control 
indefinitely. A change is going to come. The question is what 
change and in what form. We at the OTI and PK supported by a 
broad coalition of U.S. and international public interest 
nonprofits welcome the Department of Commerce plans, and we 
watch closely and engage deeply in all the venues of 
engagement, ensuring that the transition meets, as we all hope, 
the standards of inclusiveness, openness, transparency and 
accountability. In the meantime, we welcome the subcommittee 
interest in this complex issue, and look forward to working 
with its members to ensure the security, stability, reliance 
and freedom of the global Internet. As Ambassador Gross 
mentioned, the world is watching.
    Thank you so much for your time and for your trust.
    [The prepared statement of Ms. Rossini follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Latta. Well, thank you very much for your testimony 
today. We appreciate it.
    And I will start with my 5 minutes for questions.
    Ms. Rossini, you appear to be claiming in your testimony 
that if the transfer does not occur, the near-term geopolitical 
outcome will be a transfer of functions away to a specialized 
agency of the United Nations, subject to political control. If 
this is, in fact, the case, doesn't that inform us of the dire 
necessity of making sure that the process that the 
Administration is about to undertake is a sound one, and that 
safeguards are in place to protect against that outcome after 
the transition is complete?
    Ms. Rossini. Yes, I agree with that statement.
    Mr. Latta. OK----
    Ms. Rossini. But I do believe----
    Mr. Latta. I am sorry, go ahead.
    Ms. Rossini. I do believe though that we have to understand 
the timing, and if any actions--that transition can cause in 
terms of the symbolic movement of U.S.
    Mr. Latta. Did you want to make a comment on that, Mr. 
DelBianco?
    Mr. DelBianco. Thank you, Mr. Chairman.
    The mechanism for what Ms. Rossini is talking about would 
have been instructive on the previous panel; this notion that 
the United Nations might adopt a resolution, indicating that it 
has got an agency that should take over. In today's world, 
since we do hold the title, we do hold control of the root, any 
attempt to do that is a nonstarter in today's world. It is the 
post-transition world where we no longer hold that title, that 
the entities we charge with it have to be strong enough to 
resist that.
    So the mechanisms of takeover, I give you one with respect 
to the governments changing the way they vote within ICANN, 
within the institution of ICANN. Ms. Rossini has talked about 
threats from without, outside of ICANN, and again, both cases 
call for us to create stress tests that can resist that.
    Mr. Latta. Thank you.
    Mr. DelBianco, if I could follow up with another question 
then to you. If the NTIA role in overseeing the IANA contract 
is administerial, minor and has no real impact on day-to-day 
operations of ICANN or the Internet, as Mr. Chehade stated, 
what impacts would this transition really have?
    Mr. DelBianco. Thank you, Mr. Chairman.
    To call it symbolic, it does not mean that it doesn't 
exist. Symbolic just means we have to ask another question 
about what it means.
    In 2010 after the Affirmation of Commitments was signed, 
the then-chairman of ICANN told a group in Europe that he 
viewed the Affirmation of Commitments as a temporary document 
that he would like to terminate. So, frankly, it is the fact 
that we hold the title, the fact that NTIA's supervision is 
there, that keeps ICANN from leaving the Affirmation of 
Commitments, it keeps ICANN honoring the obligations they have 
under the Affirmation. And I am reassured when the president of 
ICANN today says that we will live by the Affirmation, we won't 
quit it because it is working well, and I agree, but he won't 
be the president of ICANN forever. There is an ebb and flow 
with powers and pressures in a geopolitical environment. The 
question is what holds ICANN to live within the Affirmation? 
That is a symbolic value. You could call it that, but it is 
quite real and has an effect right now, because the Affirmation 
of Commitments was cited by everyone on the previous panel as 
the real constitution that keeps ICANN truly accountable and 
transparent to the world.
    Mr. Latta. OK, let me follow up with another question to 
you then.
    What role can the nonpartisan research entities like GAO 
and CRS play in this process?
    Mr. DelBianco. Mr. Chairman, a GAO review, similar to what 
I saw in the Shimkus-Blackburn Bill, could explore what these 
four principles mean, explore what the words multi-stakeholder 
and open of the Internet, that would be very helpful to get an 
explanation of flushing out those terms as we, the community, 
design these processes. And a GAO might, or Congress might 
also, help to devise these stress tests that I delineated in my 
testimony. I only put eight of them in there. We may need a few 
more. And as the stress tests are put together, the community 
can then use those to figure out whether the proposals are 
going to work.
    I think Chairman Upton said--he characterized these Bills 
as something of--in terms of hitting the brakes. I would 
characterize it differently. It would be better if GAO helped 
us to design a crash test for the vehicles that we have to 
test, as opposed to hitting the brakes on the process.
    Mr. Latta. Thank you.
    Ms. Rossini, what role do you think that public interest 
and civil society groups such as yours play in this transition, 
and how can you encourage a good outcome in that transition 
process?
    Ms. Rossini. Since many years, Mr. Chairman, civil society 
has engaged, actually, since the very first creation of ICANN, 
members of the Berkman Center that then went on to public 
interest organizations, helped form ICANN, helped inform its 
bylaws. So historically, we are deeply involved. We are also 
deeply involved to committees of representation that are driven 
by consensus building--and we are also informed by the bylaws 
when we participate on those. We can also inform decisions 
through participation in IJET, which is non-decision-making, 
but it is important for how to set the rules on how we are 
talking about concepts and so on, and we can also engage in--
even in multilateral--informing the countries on those. So 
there are many avenues for engagement, participating in a more 
decisive decision at the end.
    Mr. Latta. Well, thank you very much.
    And my time has expired, and I now recognize for 5 minutes 
the gentleman from Pennsylvania.
    Mr. Doyle. Thank you, Mr. Chairman.
    Thank you for your testimony today. It seems that a lot of 
my colleagues here that have expressed concern is that some 
future Board of ICANN 20 years from now, or somewhere in the 
future be, that would be influenced by some repressive 
government to somehow restrict access to the Internet. And, you 
know, I was reading an article here from Weekly Standard that 
really questions really how powerful ICANN is, and I just want 
to read from the statement. It says contrary to dark 
speculations by various conservative commentators, ICANN can't 
really facilitate Internet censorship in China and Iran to 
please those governments. ICANN can't stop them from that doing 
that now. Nor is there any plausible scenario in which ICANN 
imposes censorship on U.S. Web sites. Actual Web sites operate 
through 13 root servers, some still directly run by U.S. 
Government agencies, some by U.S. universities, and some by 
U.S. private companies. It would be no technical challenge for 
them to bypass ICANN and coordinate amongst themselves. 
Politically, it is really unimaginable that they would all bow 
to Chinese pressure for censorship because ICANN told them to 
do so.
    How do you react to a statement like that? And you--I mean 
if the root servers are controlled by mostly American 
governments, private companies and universities, what can ICANN 
really do to force them to somehow censor the Internet in the 
United States?
    Mr. DelBianco. What the root servers contain, 
Representative, is a set of the top-level domains, the .com, 
.net, .mil, .org., and 200 brand new ones that have just come 
along, as well as the country code, and we are still having 800 
or 1,100 more coming in the next year. Each of those new top-
level domains was approved by ICANN, and the ICANN Government 
Advisory Committee, and we call it the GAC here, came up with a 
disapproval of a few. For instance, they said that .Islam 
should not go into the root. So that means it doesn't go into 
the main root, and it doesn't go into any of those root 
servers, wherever they are controlled. So the top-level domains 
that are approved, that responsibility lies with ICANN, and 
then ICANN hands it over and puts it in the root. And as I 
mentioned earlier, that root--the U.S. Government has custody 
of that through IANA, and that is what we are transitioning to 
some other body.
    So it--the censorship that we are speaking of is whether 
labels, like the top-level domain of a government official's 
name, .corrupt, would still be allowed to exist. And there are 
pernicious ways in which to achieve that. One can attach rules, 
and I mentioned in my testimony that the--ICANN makes the 
rules, and today, you cannot light up Washington. any top-level 
domain without the permission of that city, that country or 
that territory name. So those are the kind of rules that allow 
governments to expand their control of the labels that are used 
for Web sites, and I know they do so in their own countries 
today. The question is how do we prevent that, and we can, we 
can prevent that, from sneaking its way into controlling the 
root at the top level.
    Mr. Doyle. But there is no way that ICANN has no power to 
force any of these root servers to do what it says. I mean they 
could easily just bypass ICANN and coordinate amongst 
themselves. Is that not true?
    Mr. DelBianco. That is an interesting proposal. That might 
be one of the proposals that comes back. The root server 
operators are an independent group of technology companies.
    Mr. Doyle. Right.
    Mr. DelBianco. They may well suggest a proposal for they 
taking title to the root, as opposed to giving it to ICANN. We 
will wait and see, but the questions you ask are hypotheticals 
that might be answered by a proposal, and I think those 
hypothetical questions are exactly what we need in terms of 
stress tests.
    Mr. Doyle. Thank you. Let me ask another--Mr. Shimkus' 
legislation, I don't know whether the panelists have been 
provided a copy of Mr. Shimkus' legislation to read it but one 
of the concerns I have, I have no problems with the GAO doing a 
study, I do have a problem with the fact that it delays the 
process for a year, or it could delay the process for up to a 
year, is written in it.
    What impact do you think that would have if this process 
could be delayed up to a year while the GAO conducts a study? 
Ms. Rossini?
    Ms. Rossini. Mr. DelBianco asked me to go first. So I think 
that this year we see a couple of very important milestones in 
this process. We have the--coming in Brazil end of this month, 
and we also have the ITU coming later in November. So you are 
going to have two very important meetings in this moment where 
we are trying to define the principles of the Internet 
governance ecosystem, and if that announcement, if that 
symbolic announcement that actually has a lot of--is not made 
clear, and is not a real commitment of U.S., we can have a very 
difficult outcome, some very difficult outcomes from these 
meetings. The ITU meeting coming out, you are going to have 
them, the voices of those governments that are known democratic 
governments, that can speak much loud than they would be able 
to speak here or even in--which will be a multi-stakeholder 
government. And we have civil society, we have a range of 
actors acting from protestors in the street, to--strategy, to--
advisory. I am part, actually, of the Global Commission on 
Internet Governance that was announced in the Web, so we have a 
lot of ways to engage to be sure that the results of those 
meetings are well received, and also in agreement with the open 
Internet. So the announcement--we need your help to make those 
meetings work for an open Internet. So----
    Mr. Doyle. I see my time is up, Mr. Chairman. I appreciate 
your indulgence.
    Mr. Latta. Well, thank you very much. The gentleman yields 
back. And the Chair now recognizes the gentleman from Illinois 
for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman, and I appreciate 
following my friend from Pennsylvania.
    Mr. Chehade had said in his written testimony he mentioned 
that the importance of not rushing this process. That is his 
testimony. So I think it is important for us to get it right, 
and I think we have got to have comfort with this, and I 
understand the international push, but we have done numerous 
things in this government rushing, and then being embarrassed 
by the results of rushing through the process. So the 
Government Accountability Office, as I said, is the Inspector 
General for us. I think it is--really the least, we should at 
least do is have another pair of eyes on this process, 
answering a lot of the questions that Mr. DelBianco had 
mentioned.
    Ms. Rossini, thank you for coming. First two questions are 
kind of part of your written testimony. In your testimony, you 
say that my Bill, the DOTCOM Act, seeks to block the transition 
in the name of human rights. Can you cite the part of the Bill 
that says that?
    Ms. Rossini. Can you repeat the question?
    Mr. Shimkus. Yes. In your written testimony, you say that 
the DOTCOM Act seeks to block the transition in the name of 
human rights. Your--you say----
    Ms. Rossini. Yes.
    Mr. Shimkus [continuing]. This bill is really an antihuman 
rights bill, I think.
    Ms. Rossini. Well, thank you, Mr. Representative, first, 
for reading my complete written testimony, and I think that is 
not my understanding what I have written there.
    My concern is that if we wait one year, if we block the 
transition now and wait one year until we have a report, that 
is the risk and that is the risk that we are going to have for 
known democratic governments to actually make their voices even 
louder, and manipulate the narrative both in--and in November.
    Mr. Shimkus. And if I may, because I have another question 
I want to follow up, so I appreciate that because that was kind 
of maybe an answer I was expecting from the first panel, but, 
in essence, they didn't give me that.
    Ms. Rossini. Yes.
    Mr. Shimkus. They basically said we support, you know, we 
support another look, transparency, good review, fortunately 
for us I think they, in essence, endorse the bill. Because they 
could have responded a different way, which----
    Ms. Rossini. And one thing I would do--I am sorry.
    Mr. Shimkus. No, go ahead. Go ahead.
    Ms. Rossini. One thing that I actually would add to that is 
that if U.S. had supported through bipartisan, unanimous 
consensus, the resolutions that foster multi-stakeholder, this 
statement, this report could come--has one stakeholder input 
not to hold the process back. So you are going to have a voice. 
U.S. has a strong voice.
    Mr. Shimkus. But you understand that doing a review by the 
Government Accountability Office would take some time. If we 
believe--you heard the concerns out here, and I think some of 
them are--as the Internet has changed over the decades so has 
the world community. I think the people would credibly argue 
that the world is a more dangerous place today, not a safer 
place today.
    Ms. Rossini. Yes.
    Mr. Shimkus. So, these aren't crazy things to ask and 
review.
    Let me turn to Mr. DelBianco to address that concern, and 
the concern about another government look.
    Mr. DelBianco. Congressman, the members of NetChoice are 
concerned that we send the wrong signal by simply hitting the 
brakes or having a delay, and yet we think you are sending the 
right signal by asking questions about defining the terms and 
the four principles. What does the term mean, multi-
stakeholder, meeting the needs and expectations, what does 
openness mean, and more importantly, what are the risks to 
those four principles, and the risk of government influence 
associated with new proposals. So that is exactly how I believe 
we can channel the kind of energy that you and Congresswoman 
Blackburn have brought here, channel that energy into having 
GAO begin now in articulating what they think definitions that 
are appropriate for accountability, and the risks, because that 
will allow us in the community who are designing proposals to 
test those proposals against the risks that Congress and the 
GAO have identified. Those should begin in parallel because we 
started last week in Singapore to design multiple proposals, 
and you wouldn't believe the email traffic that has already 
gone on since we left Singapore. Thousands of email messages 
with different groups, not all ICANN, different groups coming 
up with proposals, in over 18 months plus potentially two 2-
year extensions, we will have the opportunity to narrow that 
down to a short list of proposals. I would benefit from having 
your work, the work of GAO or anybody in the U.S. Government in 
articulating the risks we want to avoid.
    Mr. Shimkus. And I would just end, Joe Barton stole the 
phrase I was going to use from Ronald Reagan, trust but verify. 
And all this is is a verification of what everybody says is 
going to happen is actually going to happen.
    Yield back my time.
    Mr. Doyle. Mr. Chairman, could I just add one brief thing 
for the record----
    Mr. Latta. Yes, it is----
    Mr. Doyle [continuing]. It will take 3 seconds?
    Mr. Latta. The gentleman is recognized.
    Mr. Doyle. Thank you.
    I just want to state for the record that I did not hear any 
of the panelists in the first panel endorse Mr. Shimkus' 
legislation.
    Mr. Shimkus. And then----
    Mr. Latta. Mr. Shimkus?
    Mr. Shimkus. If I may? I would say I would hope my 
colleague was at the first panel, and they definitely did not 
oppose the Bill.
    Mr. Doyle. OK, but they didn't endorse it either.
    Mr. Shimkus. That is debatable.
    Mr. Latta. OK, thank you. Thank you, gentlemen.
    I want to thank the--on behalf of Chairman Walden for your 
testimony today. We greatly appreciate you being here and 
testifying before us today.
    And seeing no other business come before the subcommittee 
this afternoon, the committee will stand adjourned. Thank you.
    [Whereupon, at 1:00 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Joe Barton

    Last year, the House unanimously passed H.R. 1580 declaring 
it the policy of the United States to preserve and advance the 
multi-stakeholder model that governs the Internet. While I may 
have supported this measure, I have a number of questions 
regarding the process of relinquishing the National 
Telecommunications and Information Administration's (NTIA) role 
with the Internet Corporation for Assigned Names and Numbers 
(ICANN).
    I believe that transparency is imperative during this 
process, and I am happy to be an original cosponsor of the 
DOTCOM Act of 2014. This bill requires the GAO to release a 
report on every proposal given to NTIA for consideration by 
ICANN, and I strongly believe that Congress should have an 
oversight role regarding this process. Because NTIA has clearly 
indicated that it will not approve a proposal that does not 
maintain the openness of the Internet and allow for the 
governments of other countries to control the Internet, it is 
my expectation that the Administration will adhere to their 
promises. The last thing I want is for some other governmental 
body in another country having a greater influence over how our 
Internet works today.
    With this said, I look forward to hearing from our 
witnesses and learning more about ICANN's vision of advancing 
the multi-stakeholder process of Internet governance.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
